      INTRODUCTION   *   •   •



      EXECUTIVE SUMMARY                                        2


  I   ORGANIZATION AND STAFFING.                               5


 II   STATUS OF ITEMS REPORTED AS SIGNIFICANT
      PROBLEMS, ABUSES, OR DEFICIENCIES IN
      PREVIOUS REPORTS • • • • • • • • • •                     6


III   DESCRIPTION OF SIGNIFICANT PROBLEMS,
      ABUSES, AND DEFICIENCES AND RECOMMENDATIONS
      FOR CORRECTIVE ACTION • • • • • • • • • •               14


 IV   SPECIAL EFFORTS TO CONTROL FRAUD, WASTE, AND
      MISMANAGEMENT. • • • • • •   • ••                       18

  V   REVIEW OF LEGISLATION AND REGULATIONS.                  21

 VI   STATISTICAL SUMMARY OF ACTIVITIES.                      23

VII   HIGHLIGHTS OF ACTIVITIES •                              30

      Appendix I - List of audit reports issued during
      the period April 1, 1980 through
      September 30, 1980 • • • ~   0'   • • • • • • • • • •   37
      Appendix II - List of inspection reports issued
      during the period April 1, 1980 through
      September 30, 1980 • • .. • .. • .'. • • • • • ...      71
                                   INTRODUCTION

   This is the fourth semiannual report of the Office of Inspector
   General, General Services Administration (GSA), submitted
   pursuant to the Inspector General Act of 1978 (P.L. 95-452).
   It covers the period April 1, 1980 to September 30,1980, and
   includes, as required by the Act:
         1.       A description of significant problems, abuses, and
                  deficiencies in agency programs;
         2.       Recommendations for corrective action;
         3.       A report on the status of significant items previously
                  reported;
         4.       A summary of matters referred to prosecutive
                  authorities~ and

         5.       A listing of all audit reports issued.
   I believe this report reflects the dedication and professionalism
   of the many auditors, investigators, inspectors and lawyers who
   are personally committed to an aggressive posture on behalf of
   this Office in the detection of fraud, abuse and mismanagement.
   I extend my personal appreciation to each and everyone of these
   employees whose work is only generally reflected in this
   brief report. Much of the work performed by this organization
   has not been included in, this report simply due to space limita-
   tions; however, I believe that the numerous reports which are
   not specifically referenced in this semiannual report are also
   truly indicative of a strong professional commitment on behalf of
   all Inspector General employees.
   I would also like to acknowledge the continued excellent support
   received from Administrator Freeman in carrying out the respon-
   sibilities of my Office.



  J4~~A.'-
   Inspector General
   General Services Administr




GSA DC.Oll00485

                                        -1-
Some     the mOl'       ificant activities             r    ting
per iod are as
          27 cases to the Department         Justice for prosecu-
 tion consi   at.
-Referred 10 cases to the Department of      J   ice       civil
 recovery.
-Collected $205,721 as the result of settling GSA claims
 against individuals who defrauded the Government.
-Participated in the filing of 5 fraud-related civil
 actions seeking a total recovery of approximately $2
 million.
-Referred 18 suspension actions and 29 debarment actions
 to appropriate GSA officials.
-Referred 81 cases to GSA management for administrative
 action and 38 for informational purposes only.
-Issued 53 subpoenas.
~Issued 168 internal audit reports and 234 contract audit
 reports, the latter recommending savings in excess of
 $23 million.
-Conducted inspections of 222 leases, construction projects,
 contracts and work orders.
-Issued 38 inspection reports recommending actions which
 could result in total savings of more than $1.4 million.
-Opened 256 and closed 223 investigative cases.
-Participated in numerous inter-Inspector General projects
 regarding legislation, suspension and debarment, and
 consultant contracts.




                           -2-
  REPORTING REQUIREMENTS OF              LOCATION IN THIS
  THE INSPECTOR GENERAL ACT                    REPOR"I'



Section 4(a) (2)-Review of                   Section V
Legislation and Regulations



Section 5ea) (I)-Significant                 Section III
 problems, Abuses and
 Deficiencies


Section 5(a) (2)-Recommendations             Section III
 for Corrective Action with
 Respect to Significant
 Problems, Abuses and
 Deficiencies


~ection 5(a) (3)-Status of                   Section II
 Items previously Reported as
 Significant Problems


Section 5(a) (4)-Summary of                 Sections VI, VII
 Matters Referred to
 prosecutive Authorities and
 Convictions Resulting
 Therefrom


Section 5(a) (5)~Summary of                 No such reports were
 Reports Made to the                        made this reporting
 Administrator under the                    period.
 Provisions of Section
 6(b)(2)


Section 5(a) (6)-Listing of                 Appendix I
 Audit Reports




                                   -3-
                                      OFFICE OF INSPECTOR GENERAL
                                    GENERAL SERVICES ADMINISTRATION

                                          Inspector General
                                       Deputy Inspector General

                                                                           Office of the
                                                                         Executive Director



           I                                                                                   I
         Office of               Office of                     Office of                 Office of
      Special Projects            Audits                      Inspections              Investigations
I
4:-
I


                            Field Audit Offlces             Area Inspectlons          Field InvestIgatIons
                                                                 Offices                    Offices
                         Boston        Kansas City                     t.on          Boston        Kansas City
                             York
                         Ne\ll         Fort Worth            Atlanta                 New York.     Fort Worth
                           i        ia Denver                Chicago                 Wash ton      Denver
                         Washington    San Francisco         San Fr-          sco                  San Francisco
                         Atlanta       Auburn                                        Chicago       Auburn
                         Chicago
I.   ORGANIZATION AND STAFFING
    On July 6, 1980, Brian M. Bruh was appointed Assistant
Inspector General for Investigations. Mr. Bruh wa~ formerly
employed by the Internal Revenue Service (IRS) as Chief,
Criminal Investigation Division in Boston, Massachusetts.
    At the close of this reporting period, the Office of
Inspector General had 544 employees either on-board or committed.
See Figure l~ This figure indicates a 98-person increase during
this reporting period. We have entered into an agreement
with the Office of Personnel Management (OPM) authorizing us to
establish and operate a Special Examining unit (SEU). The SEU
will review and rate applicants for criminal investigator and
auditor positions at the GS-9 through 15 levels. The personnel
who will staff this unit have been designated and have received
initial OPM training for operating an SEU. We anticipate that
the establishment of our own SEU will greatly facilitate future
staffing efforts.




                      DISTRIBUTION OF STAFF
                   OFFICE OF INSPECTOR GENERAL

                                            On-Board
                                              and
                          On-Board         Committed   FY 1980
                          3/31/80           9/30/80    Ceiling
     Inspector General           6               6          6
     Offices of:
     Audits                  239               286        291
     Inspections              52                78         82
     Investigations          114               136        150
     Special projects         23                22         27
     Executive Director       12                16         16


     Total                   446               544        572




                             Figure 1




                                     -5-
II.   STATUS OF ITEMS REPORTED AS SIGNIFICANT PROBLEMS, ABUSES,
      OR DEFICIENCIES IN PREVIOUS ~T§
                     ------~--


      A.   INSPECTOR GENERAL   REPORT_O~_~~BER     1,   197~

           1.   Otisville Federal Correctional Institution
                Construction project   n   -   -------------




     As indicated in the 2 preceding reports, this Office under-
took a broadly-based review of the entire Otisville Federal
Correctional Institution construction project. Each of the 4
components of this Office--the Office of Audits, the Office of
Inspections, the Office of Investigations, and the Office of
Special projects--played a part in this review, each contributing
to the review its own particular expertise. As noted in the pre-
ceding report and discussed below, this review resulted in a
number of recommendations for administrative action and new mana-
gement policies. In addition, during this reporting period it
resulted in a referral to the United States Attorney for the
Southern District of New York for further investigation of those
areas in which there may have been violations of federal criminal
law and in which there is the potential for significant civil
recoveries. We are continuing to provide that office with addi-
tional assistance in connection with the investigation and any
possible future litigation.
     A final audit report on the Otisville project was issued
during this reporting period. It recommended that the Regional
Public Buildings Service (PBS) Construction Management Division
take the following corrective actions: withdraw the contracting
authority of those employees who demonstrated incompetence in the
administration of this project, institute disciplinary actions
where warranted, provide additional training for contract
administrators, and refer to the Office of Inspector General any
evidence of irregularities not addressed in the report.
     The Regional Administrator declined to follow the first 2
recommendations. He stated that, owing to extenuating cir-
cumstances connected with the Otisville project, there is no
basis for either removing the contracting authority of, or taking
disciplinary action against, any GSA employee involved with the
project. With regard to the other 2 recommendations, the
Regional Administrator took the position that no formal action is
required since an effective training program is already in place
and there is an established policy of referring evidence of irre-
gularities to the Office of Inspector General. In addition, the
Regional Administrator announced the formation of a special
Architect/Engineer Committee for the Federal Correctional
Institution, Otisville, New York, project. Composed of PBS per-
sonnel not otherwise connected with the project, the Committee is
to examine Architect/Engineer responsibility under the Otisville
construction contract.




                                 -6-
     The Commissioner, PBS, has received the f ina'l audi t report and
the Regional Administrator's response but has not yet submitted
an action plan. When such a plan is submitted, this Office will
review it and determine whether additional action is necessary.
     In accordance   with its normal practice, PBS has also issued
a final inspection   report on the Otisville project in September
1980. This report    contained technical analyses of several of the
points made in the   final audit report and confirmed many of these
points.
     Our Office of Inspections is continuing to review the Otisville
project. It is in the process of completing an inspection report
which will evaluate the entire PBS performance.

          2.   Non-competitive Award of Guard Contracts
     The preceding report stated that as of March 25, 1980, the
National Capital Region (NCR) had yet to award 24 of the 54
security guard contracts which had been formally advertised.
(The advertising of new contracts in this area was undertaken in
response to significant losses suffered by the Government as the
result of multiple extensions of guard contracts.) At the close
of this reporting period, all but 6 of the 54 formally advertised
contracts had been awarded. However, because performance has not
yet commenced under several of the awarded contracts, some
security guard contractors are still performing under non-
competitive contract extensions.

          3.   Term Contracts
     The preceding report stated that this Office had issued an
interdisciplinary report which outlined weaknesses in the award
and administration of term contracts and recommended ways of
remedying them. During this reporting period a number of the
report's recommendations were accepted. and implemented. PBS did
not accept our specific recommendations to
     -limit the scope of term contract projects,
     -assure independent secondary inspection of work
      done under these contracts, and
     -restrict the procurement of non-scheduled items.
However, PBS is taking steps which may achieve the intent of
these recommendations.

     We are continuing to review and, where appropriate, to
recommend that action be taken against specific term contractors.
For example, during this reporting period we participated in the
filing of a civil action for approximately $500,000 under the


                                 -7-
ni
January
      In the preceding        t we re rr
tions regarding          space$ One
     recommendat     which was
prospectus which had        s
on Environment and Public Works
not was that GSA make improvements
rather than terminate the        e at a cost
millionG The Administrator concurred in PBS '
     building'? fire                    immediate
the lease and that correcting fire sa ety      ficienc es was
f     ble under          circumstances     the    ticular case.



                                                              PBS
construe

                                                             from


                                                           in He




                                                                        t


                          ~- more
                           ications
                    our recommendations.

     with regard       Federal Bui i                v   Montana, we
     recommended          agency recover                  $52,000
in fire       I    costs from the
in receiversh ,   t a             is amount
receiver. PBS is monitori                                           i
    money.
abuses in this area. These reco~nendations were submitted to
the Assistant Regional Administrator, PBS, who accepted all of
the recommendations except one. This was that AlE term con-
tractors not perform any services ~- soil testing and roof
inspecting were 2 examples given -- which are not directly
related to the design project. We have reviewed the Assistant
Regional Administrator's rationale on this point and reaffirmed
our recommendation. It was submitted to the Commissioner, PBS,
and he is expected to respond to it in the very near future.
         3.   Multiple Awards
     As noted in the preceding report, the Commissioner, Feder
Supply Service (FSS), initiated a management review project to
correct the problems associated with multiple award contracting~
The Multiple Award Schedules Task Force, which was organized
this spring, had initial responsibility for the project. As of
August 1980, the Task Force had reviewed 23 out of the 113
supply schedules, representing $487.6 million out of the $102
billion worth of sales made through all the schedules. As a
result of this review, the Task Force cancelled 13 schedules,
which included 182 contracts worth a total of $85 milliono Most
items which had been on these schedules are now purchased through
the competitive procurement processo FSS has undertaken the
Task Force's review as part of its regular program function.
         4.   Audits of Furniture Procurement and   Manaseme~

     On July 24, 1980, this Office issued an interagency report
on furniture procurement and management. Audits conducted by
each of the Executive agencies in accordance with our audit
guide and under our supervision formed the basis of the report.
Among the significant findings included in the report were the
following:
         - Through its sales-oriented supply system, GSA had
           made it too easy for agencies to obtain new furniture
           while good, usable items were in storage.
         - Owing to the absence of any effective restraints,
           office furniture procurement exceeded $1 billion over
           the past 9 years.
         - Justifications for furniture procurement were
           generally not prepared.
         - The furniture repair and rehabilitation program
           was rarely used.
         - There was a general lack of control over furniture
           storage and furniture disposal.




                                -10-
The report recommended that GSA take the following actions to
correct these problems:
              cease advocating the procurement of one line of
              furniture to replace another,
              discontinue all projects for systems furniture
              until space saving and cost justifications are fully
              documented,
              establish a furniture redistribution center, and
              revise the Federal property Management Regulations
              to require agencies to prepare annual plans for fur-
              niture purchases and to conduct regular furniture
              inventories.
After coordinating its efforts with our Office, the General
Accounting Office made recommendations similar to ours in a
report dated July 28, 1980.
     At approximately the time our report and the GAO report were
issued, Congress rescinded $220 million which had been appropriated
for furniture procurement in FY 1980. This rescission followed
a "freeze" on furniture procurement instituted by the Adminis-
trator and a later and more inclusive "freeze" instituted by the
Office of Management and Budget (OMB).
     GSA has either implemented or taken preliminary steps
toward implementing all of our recommendations. The agency
no longer promotes the use of one line of furniture to replace
another; instead, it has adopted a policy of encouraging the
reuse of furniture. It has also suspended the procurement of
systems furniture. As the Administrator stated in a letter to
OMB, .such procurements will be suspended "until adequate data
has been collected and management controls are in place to ensure
that only cost effective applications of systems furniture are
pursued."
     As to the other recommendations, the Administrator has
charged the Commissioner, FSS, with the implementation of a
Furniture Reform Plan. Its purpose is to reform the various
agencies' furniture procurement and management practices.
Included in the plan are the following elements: validation
of agencies' respective furniture requirements, establishment
of a network of federal agency property management officers,
development of federal agency furniture retirement and expense
plans for FY 1981, development of a better product line of
furniture to increase standardization, and reduction of the
number of available furniture items.
         5.    Federal Property Resources Service (FPRS) Donation
               Program
     During this reporting period we continued our review of state
distribution of federal surplus property. We added reviews of 5
additional states to those completed during the   eceding reporting
period. The same types of problems were identi ed in both
the earlier and recent reviews. Among these problems are failure
to comply with state as well as federal regulations, ineligible
donees, improper utilization and disposal of surplus property,
and weak inventory controls. Some specific instances of donee
noncompliance with applicable laws and regulations are now under
further investigation.
     FPRS has initiated a number of corrective actions in
response to these audits$ It has revised its operational proce-
dures and the FPRS operations handbook to correct identified
weaknesses and has reaffirmed with the appropriate state agencies
their responsibilities as to eligibility determination, approved
utilization, and proper accountability. FPRS has also taken
action in specific cases to correct problems relating to surplus
disposal. For example, steps have been taken in several instan-
ces to recover property from suspended donees. And in
California, the eligibility of 2 donees has been suspended, and
an investigation for possible suspension of the eligibility of a
third donee has commenced.
         6.   Enersx
       A report we issued during the preceding reporting period
s        that, with regard to 6 buildings surveyed, 20 to 30 per-
cent energy savings (approximately $2.5 million) could be
r    i     with lit   , i f any, outlay of funds. The Commissioner,
PBS, advised that he would prepare a full response to this r      t
by October 15, 1980. During the interim, we have contacted the
regions in which these 6 buildings are located and learned that
the regions themselves have initiated energy surveys and have
already implemented many of the recommendations of our report.
      We have begun an intensive examination of the energy
problems of other large Government-owned buildings, and we have
identified areas of waste and ineffective management and recom-
mended specific procedural revisions which would result in signi-
ficant energy savings. For example, during this reporting period
we completed inspections of 6 more buildings and recommended
operating procedure adjustments which would save between $82,000
and $116,000 annually. Also, a joint GSA/IRS inspection of a
large leased IRS Data Center indicated that with a small invest-
ment of time and money, annual energy and cost savings of between
$200,000 and $300,000 could be realized.   In the coming months we
will expand our energy conservation program to include
"follow-up" inspections to confirm that corrective actions have
in fact been taken.
             nistrator has given his f      t support to our
energy conservation   forts, and he has requested that this
Office continue its speci   energy surveys.




                                -12-
         7.   Other
              a.   Review of Year-End Obligations
    During the preceding reporting period our review of year-end
spending at the close of FY 1979 indicated that Regions 5 and 9
had failed to obligate funds to cover accrued costs under lease
escalation clauses, and had their rental accounts been adjusted
to reflect these unrecorded obligations, 'the rental appropriation
would not be sufficient. Reviews of other regions were initiated
on this point during the present reporting period. Those
reviews which have been completed indicate that the problem is
not confined to Regions 5 and 9. All of these reviews will be
included in a consolidated report to be issued by the end of this
year.
    After issuance of the interim audit report which addressed
its rental account, Region 9 adjusted its account to reflect the
obligations for accrued escalation costs. Its rental account
was not deficient, however, because a PBS analysis disclosed
that Region 9 had adequate rental funds available to cover this
increase. On the other hand, Region 5 refused to adjust its
rental account on the ground that its leases did not require
that the particular escalation costs in question be accrued.
The issue is now being considered by Central Office Finance and
PBS officials.
              b.      Review of Controls Over Federal Buildings Fund
                      payments
    The preceding report noted that an audit had disclosed that
in Region 4 the failure to enter utility bills into the system
promptly was resulting in a $13,000 loss to the Government and
that controls over vendor payments were weak. The audit report
made specific recommendations to remedy this situation. Since
that time, the region has accepted the recommendations and begun
implementing them. Consequently, the problems noted above
should be in the process of being corrected.




                                  -13-
III.    DESCRIPTION OF SIGNIFICANT PROBLEMS, ABUSES, AND
        DEFICIENCIES AND RECOMMENDATIONS FOR 'CORRECTIVE
        ACTION                     -~-   --        --


       A.   CONSULTANT CONTRACTS
      Before this reporting period began,         formulated and
initiated a plan for reviewing a consi                  of
s t a n t contracts. The first consultant contracts
     ew were 7 which had been awarded by the               ives and
Records Service (NARS), Office      Records
Management. We identified the following pr                 procure-
ment and administration of these contracts:           or no use was
made of contract products, 86 percent of FY 1977 budget for
contract services was spent in the last 45        of the fiscal
year, questionable award procedures were       , improper payments
were made to contractors, and monitoring of consultant contracts
was ineffective. In response to these problems we recommended
that use of consultants be determined by a pre-existing
poli    , that proper contracting procedures be followed, and that
       source awarding of contracts to former employees    avoided.
The Administrator and Archivist agreed with these recommen-
   tions, and the Archivist has made a commitment to put them into
e ect.
     OMB directed that GSA, as well as other agencies, submit "a
proposal • • • detailing its management control system for
procurement practices," particularly those relating to consultant
service contracts, and that our Office review and evaluate the
system. Consequently, GSA drafted and we submitted preliminary
comments on a revised GSA order (ADM 2800.12A) governing the
award and administration of consultant service contracts. After
the order was further reviewed and forwarded to OMB, we submitted
to OMB final comments which supported the new order. See Section
V. OMB approved GSA's entire management control system
on September 11.
     In addition, at the further direction of OMB, an interagency
group with representatives from 5 agencies was established to
develop a Government-wide guide for auditing consultant
contracts. Members of our Office represented GSA. The guide
has been completed and distributed Government-wide. This guide
will be the basis for our continuing review of selected con-
sultant contracts awarded by GSA.

     During this reporting period we submitted comments on 3 bills
concerned with consultant contracts. They were H.R. 4717 and H.R.
7674 and its identical Senate counterpart, S. 2880. See section
V.




                                   4-
     B.   PENALTY GUIDE
     Recent investigations of violations of contracting procedures
in the metropolitan Washington, D.C. area led us to evaluate the
effectiveness of the GSA Penalty Guide which had been issued in
May 1973. Its twin purposes were to deter employees from per-
forming improper acts or disregarding established orders,
regulations, and procedures and to ensure reasonable uniformity
among supervisors in administering disciplinary actions.
     We found that the Penalty Guide lacked specificity, was not
sufficiently broad in its coverage, and was in many ways
outdated. For example, it did not specifically address the
following types of abuses relating to contracting for goods and
services: accepting incomplete work, falsifying inspection
reports, destroying contract files prematurely, incomplete
recordkeeping, and splitting contracts to avoid maximum order
limitations.
    A group of senior members of each component of this Office
participated in the development of recommendations for revisions
of the penalty Guide. The purpose of these recommendations
was to make the penalties more consistent, effective, and
appropriate to the specific offenses. The recommendations
address a significantly greater number of actions which
might justify a disciplinary response. Diverse units within GSA
reviewed and commented upon the recommended revisions. With only
minor changes, the recommendations were adopted and incorporated
in a revised penalty Guide.
     C.   PROCUREMENT OF COAL
     In FY 1979, FSS purchased coal to be used in the Washington,
D.C. heating plant. We reviewed the coal procurement and deter-
mined that: the Defense Fuel Supply Center (DFSC), not GSA,
has the authority to purchase coal; the award of a $3.7 million
contract was not in compliance with federal regulations and was
not in the best interests of the Government~ and there were many
questionable procurement practices connected with the contract,
~, paying $278,000 above the competitive price for coal and
guaranteeing the contractor a large minimum purchase. Our review
also disclosed that despite the objections of key GSA officials,
the contract was nonetheless awarded.
     We recommended that GSA abide by the delegation to DFSC and
not procure coal in the future. We further recommended that
should the agency make a management decision to purchase coal
again, it comply with proper procurement procedures.




                                -15-
     D.   DONATED REAL PROPERTY
     As a follow-up to a report issued by GAO, our Office
reviewed controls over the management of donated surplus real
property disposal. This review confirmed GSA's earlier finding
that approximately 78 percent of the donated real property is
misused, underutilized, or leased for commerci    purposes. The
agencies involved in approving the "use plans" for this property
have failed to enforce compliance with conveyance             6 and
FPRS has taken the position that GSA is not authori
compliance. To resolve the stalemate .. this   f    r
that GSA seek clear statutory authority to monitor
compliance with the terms of conveyance agreements by
perty donees. The Administrator and Commiss       , FPRS, agreed.
The agency is now preparing draft 1egislat     on this    nt.
     E.   EMBEZZLEMENT FROM THE NATIONAL AUDIOVISUAL CENTER
          (NAC) OF NARS
     Based upon information provided by
ducted an investigation into indications that
employee in charge of accounts receivable
lated NAC bank account transactions.
customer records access provisions of
Privacy Act of 1978 (12 U.S.C. 3401 et
the ex-employee had converted NAC funds
siting checks made payable to NAC into a personal bank
had established under the NAC name. It was estimated
funds thus converted over a period of years amounted to   excess
of $150,000. As a result of our efforts, the case was referred to
the Department of Justice, and the individual pled guil  to a
charge of embezzlement. The individual has also made partial
restitution.
     The conversion of funds had been possible because internal
financial controls over the NAC account were non-existent. Con-
sequently, we recommended that strict financial accounting
controls, including specific controls over the receipt and
deposit of negotiable instruments, be established over NAC finances.
In response to this recommendation, GSA operational officials
stated that an interim accounts receivable system was being
developed by the Office of Finance for use at NAC. However,
in the 6 months since our recommendation was made, implementation
of the system has been repeatedly delayed. The result of these
delays is that no effective financial accounting controls have
yet been implemented with regard to the accounts receivable of
NAC.
     F.   DOCUMENT ACCOUNTABILITY AT THE NATIONAL ARCHIVES
     In the course of investigating 2 thefts of historical
documents from the National Archives, it was determined that the
Archives does not have an adequate cataloging or accountability
system for historical documents. It does not have the capability
of retrieving or even verifying the existence of many historical
documents. Consequently, documents of great historical and

                                  -16-
monetary value can be lost or misfiled in the course of normal
archival operations, or can be stolen with little chance of reco-
very or even detection of the theft. Furthermore, if a stolen
document is recovered, the absence of an official record showing
that the document was part of the National Archives severely
limits the ability of the Government to prosecute the case suc-
cessfully.
     We recommended that the National Archives perform a complete
inventory of significant historical documents and that these    .
documents be cataloged as part of a permanent retrieval system.
We further recommended the establishment of a strict charge-out
accountability system for highly sensitive and invaluable his-
torical documents which may be susceptible to theft~ Because
these recommendations were made late in the reporting period,
agency officials have not yet had sufficient time to respond.
    G.   PRICE REDUCTION AND DEFECTIVE PRICING CLAUSES
     Our Office has focused considerable attention on the price
reduction and defective pricing clauses in multiple award
contracts. Under these clauses, a potential contractor is
required to provide GSA with complete and accurate information as
to its prices and discounts and, after the contract is awarded,
to notify the agency of any changes in these prices and
discounts. The clauses provide that violation of either require-
ment may result in a reduction of the contract price as of the
time of the violation. Consequently, by the time such a viola-
tion is discovered, the contractor may owe the Government a
significant refund.
     Fourteen contract audit reports issued during this reporting
period addressed possible violations of the price reduction
and/or defective pricing clauses. Many of these reports recom-
mended substantial refunds be paid to the Government. For
instance, a price reduction/defective pricing review of a
multiple award contract for test equipment resulted in a recom-
mended refund of $1.3 million to the Government. Our recommen-
dation was based upon the contractor's failure to disclose at the
time of negotiation the existence of certain contract arrange-
ments and its reduction of prices offered certain customers to
levels below those disclosed during negotiations. We are moni-
toring the progress of FSS in collecting these recommended
refunds. In addition, in those cases in which there are indica-
tions of fraud in connection with clause violations, we have ini-
tiated investigations into possible criminal conduct.
     FSS recently announced an interest in revising both clauses.
We have already participated in preliminary discussions as to the
revision, and, drawing from our experience with the present and
past clauses, we will continue to provide input into the
revision process.




                              -17-
IV. SPECIAL EFFORTS TO CONTROL FRAUD, WASTE, AND MISMANAGEMENT

     A.   IMPLEMENTATION OF THE CONTRACT DISPUTES ACT OF 1978
     The Contract Disputes Act of 1978 (41 U.S@C. 601 et: seq.)
became effective on March 1, 1979. The Act mandated many
changes in Government contracts. Of most concern to this Office
are those relating to claim certifications and false claims. In
June 1979 we issued to all GSA Contracting Officers a directive
to refer immediately to the Office of Inspector General any
claim suspected of being fraudulent and to make no settlement,
compromise, or payment on any portion of such claim.
     Since the directive was issued, we have assisted PBS and
the Offiqe of General Counsel in analyzing an $8.3 million delay
claim submitted under a contract for the construction of a
federal building and courthouse in San Diego, California. Audit
and technical reviews have questioned the validity of $7 million
of the claim. This Office assisted the Contracting Officer in
requiring certification under the Act of the amount claimed. We
are now engaged in an interdisciplinary analysis of the claim
to determine whether fraud was involved.
     B.   CONTRACTOR RESPONSIBILITY
     GSA is required by federal statute (41 U.S.C. 253(b» and
regulation (41 C.F.R. Part 1-1.12) to award contracts only to res-
ponsible bidders. However, our experience indicated that,
despite these mandates, GSA regulations and policy did not
provide GSA Contracting Officers with either the means for
obtaining all the information necessary for a valid responsibility
determination or adequate guidance in documenting a deter-
mination of non~responsibility. The result was that in many
instances Contracting Officers were not aware of adverse infor-
mation regarding contractor responsibilty and, consequently,
awarded contracts to non-responbible contractors. In other
instances Contracting Officers had received adverse information
but did not know how to document it in order to support a
finding of non-responsibility. Given the number of individuals
and business concerns which have been connected with crimes
involving the award and performance of GSA contracts, this Office
felt it was essential that a system be established to prevent
the award of contracts to unscrupulous contractors.
    Our Office has undertaken a 4 part approach to achieve this
end   Each part is addressed separately below:
          (1) Based upon our recommendation GSA adopted regula-
tions which require prospective bidders to certify specific
information       ing past indictments, convictions, s      ions,
debarments, and    tract   faults. This i       tion should     a
~riti    part        informational    es upon which Contracting
Officers make        ibili     terminations


                              -18-
         (2) within our own Office we are establishing and
implementing a policy whereby contractor responsibility infor-
mation developed during the course of an audit, inspection or
investigation is immediately transmitted to those Contracting
Officers throughout the agency who might benefit from it. This
policy ensures that information developed in one region can be
directly transmitted to another where it can be used in making a
contractor responsibility determination. In this regard, we have
encouraged GSA officials to maintain and disseminate contractor
responsibility information on a nation-wide basis. And, where
appropriate, Office of Inspector General personnel will conduct
nation-wide surveys of on-going procurements in order to compile
and disseminate contractor responsibility information to the
regions.
          (3) Whenever a Contracting Officer determines that a
small business is non-responsible, the determination must, by
statute, be referred to the Small Business Administration (SBA)
for review. In many instances in the past, determinations of
non-responsibility were reversed by the SBA because the
Contracting Officers in question had not properly developed and
documented the information necessary to support their findings.
To remedy this situation, we have provided information and
guidance to Contracting Officers engaged in making determinations
regarding the responsibility of small business contractors.
          (4) The ultimate sanctions for contractor non-
responsibility are suspension and debarment. During this
reporting period our Office referred 47 cases for suspension/
debarment to appropriate agency officials, and 15 firms and 16
individuals were actually debarred or suspended.   (Some of these
had been referred during earlier reporting periods. See Section
VI.C.) This Office has assisted in restructuring the agency's
suspension/debarment process. We are also coordinating a Joint
Inspectors General Project for the review and improvement of the
suspension and debarment process used throughout the Government.
As a preliminary part of this project, a representative of our
Office worked directly with OMB in drafting proposed revisions to
the Government-wide suspension/debarment regulations in connec-
tion with the Federal Acquisition Regulations project. The pro-
posed regulations are due to be circulated for comment to
procuring agencies and the Inspectors General. They are also
serving as a working document for a debarment review/reform pro-
ject being undertaken by a committee of the American Bar
Association.




                             -19-
     C.    SELF-SERVICE STORES
     Our reviews of individual self-service stores have.indicated
that these stores still have a great potential for fraud and
mismanagement. This conclusion was confirmed in a report by GAO
which was issued on August 28.  In response to these continuing
problems, we instituted a study which will evaluate partial or
complete alternatives to the self-service store concept. A pre-
liminary step in the study is a survey of user agency procure-
ments in the San Francisco area. The results of the          are
now being analyzed. We have already begun to communicate our
preliminary findings in this area to FSS.

     D.    MOTOR POOLS
     GSA motor pools, operated by the Transportation and Public
utility Service (TPUS), provide motor vehicles to the Executive
agencies and the JUdicial and Legislative branches.         are
approximately 100 motor pools and a total of 83,000     icles
which are driven about 960 million mi     annually. The scope
of the motor pool operation makes it parti      ly        ible
to abuse and mismanagement. Reviews of se     ted motor     s
have disclosed a number of recurrent problems. Among them are
poor procurement procedures, inadequate credit       security,
obsolete and excessive inventories, inadequate monitoring of
contractors' billings, and unjustified repetitive services and
repairs on the same vehicles. One review which resulted in a
criminal referral during this reporting period disclosed that
an auto body repair contractor had repeatedly been awarded jobs
by submitting false bids on the letterheads of other companies
and then submitting lower bids for his firm.
     We have made a number of recommendations to improve adminis-
trative and accounting controls in motor pools. The Regional
Administrators are committed to implementing these recommenda-
tions. We will continue to review selected motor pools to
ensure that the reported deficiencies are corrected.

    E.    TRAINING

     An Integrity Awareness Program is being developed and will
be presented in FY 1981. Its purpose is to train GSA employees
in all levels of contracting/procurement activities to recognize
and react properly to bribery attempts and to familiarize the
employees with the concept of the Office of Inspector General.
In addition, a Fraud Awareness program for our auditors and
inspectors is being developed. It     11 assist them in iden-
tifying indicators of fraud and instruct them as to how such
cases should be handled. A technical       nar to enhance the
skills of our investigators is       in the developmental s




                                 -20-
V.    REVIEW OF LEGISLATION AND REGULATIONS
     -Supported inclusion in the proposed Public Buildings Act of
      1980 (S.2080) of a clause which requires that all bidders for
      PBS contracts in excess of $10,000 certify as to past
      indictments, convictions, suspensions,and debarments.
      The clause is based upon 41 C.F.R. 5A-l.1205-2, a regulation
      which was issued by GSA at our recommendation during the
      preceding reporting period.
     -Continued to support the passage of amendments to the Federal
      property and Administrative Services Act of 1949 (H.R. 5381).
      These amendments would create an administrative penalty
      authority within GSA and expand the investigative and audit
      authority of the Office of Inspector General.
     -Opposed amendments to the Truth in Negotiations Act (10
      U.S.C. 2306 P) which would limit the requirement for certifi~
      cation of cost and pricing data to contracts in excess of
      $500,000. We support the present $100,000 threshold require-
      ment for such certification.
     -Supported in part the Department of Justice's proposed
      program Fraud Civil Penalties Act of 1981.
     -Supported proposed amendments to the Inspector General Act of
      1978 (S. 3025) which would create Inspectors General in 5
      other agencies.
     -Supported the proPQsed Financial Integrity Act of 1980
      (S. 3026 and H.R. 8006), which would highlight the importance
      of strong internal accounting and administrative controls and
      require that senior management evaluate the effectiveness of
      the controls on a continuing basis.
     -Supported proposed legislation which would simplify proce-
      dures through which the IRS would be permitted to disclose
      tax and non-tax information for law enforcement purposes,
      including disclosure to Inspectors General. We also recom-
      mended that the proposed legislation be clarified to
      underscore the authority of the IRS to disclose such
      information for civil and administrative law enforcement pur-
      poses as well as for criminal law enforcement purposes.
     -Supported the objectives of the proposed Consultant Reform
      Act of 1980 (S. 2880 and H.R. 7674), which would create new
      procedures for the procurement and administration of
      contracts for consultant services. We recommended that the
      proposed legislation be revised so that its procedures apply
      to "service contracts," i.e. all contracts other than those
      for goods or space. We also recommended that the document
      production provision of the proposed legislation not supersede
      the Freedom of Information Act's exceptions to its general
      production requirement.



                                -21-
-supported H.R. 4717, which would allow consultant contracts
 to be awarded only after an analysis of their cost effec-
 tiveness and would require that personnel ceilings be
 adjusted to reflect the awarding of such contracts. We
 suggested that several critical points be clarified, the pri-
 mary one being the scope of the legislation.
-supported ADM 2800.l2A, an order by the Administrator which
 revised GSA's procedures governing the award and administra-
 tion of consultant service contracts. We expressed concern
 as to the applicability of the order and its limited scope.
 In response, the agency agreed to gather and analyze data
 regarding these problems. We will monitor the agency's
 progress and review any judgment it makes regarding corrective
 action.
-Continued to provide assistance to the Department of Justice
 regarding the revision of federal criminal code.




                           -22-
VI.   STATISTICAL SUMMARY OF ACTIVITIES
         A.    CRIMINAL REFERRALS
          During this reporting period our Office referred 27
      cases for prosecution.   (Some of these cases are summarized
      in Section VII.) prosecution was declined in 3 of these 27
      cases and also in 6 cases which had been referred for crimi-
      nal action in earlier reporting periods.
          Figure 2 illustrates the actions taken during this
      reporting period on criminal referrals made during this and
      earlier reporting periods. More detailed information
      regarding these actions is summarized in Figures 3 and 4.
      (Note that in these figures one case may be reflected in
      in more than one statistic.)




                    IDENTIFICATION OF INDIVIDUALS AND FIRMS
                         IN THE CRIMINAL JUSTICE SYSTEM
                    APRIL 1, 1980 THROUGH SEPTEMBER 30, 1980


                 INDICTMENT/    CONVICTIONS                      SENTENCES
                 INFORMATION   PLEAS TRIALS ACQUITTALS SENTENCES PENDING
 GSA Employees         3            5        o       o         7      2

 Firms                 1            1        1       o         1      1

 Officers,
 Employees,
 principals, and
 Agents of Firms      11            9            2   o         8      6

 Private
 Individuals           0            1            o   o         1      o
 Other Government
 Agency Employees      1            1            o   o         1      o

 Total                16         17              3   o     18         9




                                        Figure 2




                                         -23-
               IDENTIFICATION OF INDICTED INDIVIDUALS OR FIRMS
                                 BY SERVICE
                  APRIL 1, 1980 THROUGH SEPTEMBER 30, 1980


                            FPRS     FSS
                                               -NARS    PBS       TPUS     TOTAL


       GSA Employees                             1       2                   3

       Firms                                             1                   1

       Officers,
       Employees,
       principals, and
       Agents of Firms         3       1                 6          1       11

       Other Government
       Agency Employees                                             1        1


       Total                   3       1         1       9          2       16




                                     Figure 3



                 SUMMARY BY SERVICE OF CRIMINAL ACTIONS TAKEN
                   APRIL 1, 1980 THROUGH SEPTEMBER 30, 1980


                 INDICTMENT/                                             SENTENCES
SERVICE          INFORMATION       CONVICTIONS         SENTENCES          PENDING

FPRS                    3                  1                  1              0

FSS                     1                  4                  3              2

NARS                    1                  1                  1              0
PBS                     9              12                     9              7

TPUS                    2                  2                  4              0

Total                  16              20                    18              9




                                    Figure 4


                                      -24-
     B.     CIVIL REFERRALS
     During this reporting period we referred 10 cases for
 civil action to the Civil Division of the Depar~ment of
 Justice or, where appropriate, to a united States Attorney.
 No civil action has yet been filed in any of these cases.
 with regard to cases which had been referred earlier, 5
 civil actions were filed. In these actions the Government
 is seeking to recover a total of approximately $2 million.
     As a result of 9 settlement agreements the Government
 collected $195,771 for damages suffered by GSA. In addi-
 tion, in connection with a prosecution, a GSA defendant
 paid $9950 as partial restitution.
     C.      DEBARMENT AND SUSPENSION REFERRALS
     During the reporting period we referred 18 suspension
 cases and 29 debarment cases to appropriate agency
 officials. Figure 5 illustrates the suspension and debar-
 ment actions taken by GSA during the reporting period as a
 result of referrals made by this Office.
                    ACTIONS TAKEN ON REFERRALS FOR
                       SUSPENSION AND DEBARMENT

               Actions pending      Referrals         Action       pending
                   4/1/80        4/1/80-9/30/80   Taken Declined   9/30/80
Suspension           24                  18       18        o         24

Debarment            32                  29       13        4         44



                              Figure 5


     D.     ADMINISTRATIVE REFERRALS
     Figure 6 illustrates the number of referrals for
 administrative action made during this reporting period
 and the resul ts of these and earlier referrals. (In addi-
 tion to the referrals indicated, we made 38 referrals for
 informational purposes only.) Examples of the types of
 referrals included in Figure 6 are recommendations con-
 cerning employee misconduct, contractual deficiencies, and
 managerial action. Not included are those recommendations
 made as part of inspection and audit reports.




                                  -25-
             REFERRALS FOR ADMINISTRATIVE ACTION TO AGENCY OFFICIALS
                             AND RESULTS OF REFERRALS
                          Referred for         Administrative
pending with              Administrative       Actions Taken by       pending with
Agency Officials          Action 4/1/80 -      Agency 4/1/80-            Agency
   4/1/80                    9[30/80               9/30/80              9[30/80
        64                     81                    III                      34
                                        Figure 6
             E.   SUBPOENAS
       During this reporting period we issued 53 subpoenas in
   support of our audit, inspection, and investigative
   activities ..
             F.   AUDIT REPORTS ISSUED
       During this reporting period we issued 402 audit
   reports. They are listed in Appendix I.   (Details con-
   cerning selected audits are set forth in Section VII.A.)
   Of these 168 were internal audits. Figure 7 illustrates
   their distribution among the services. There were 234
   contract audi ts. (This figure includes 10 reports in which
   the audits were performed by the Defense Contract Audit
   Agency.) Figure 8 illustrates their distribution on the
   basis of type of contract audited and the amount of recom-
   mended savings for each type.   The total recommended
   savings are in excess of $29 million. Because of the time
   required for negotiations and, in many cases, litigation, it
   is not possible at this point to state what percentage of
   the recommended savings will actually be realized. However,
   data from the preceding reporting period (October 1, 1979,
   through March 31, 1980) indicate that, as to negotiations
   and litigation completed during that period, 50 percent of
   the recommended audit savings were realized.

                              INTERNAL AUDIT REPORTS
                                                            Reports Issued
                                                            Number     %
Office of ~anagement, policy & Budget                         32             ---r9
Public Buildings Service                                      50              30
Federal Supply Service                                        32              19
Federal Property Resources Service                            21        '"    13
Automated Data and Telecommunications Service                     2            1
National Archives and Records Service                             3            1
Other (presidential Commissions, etc)                             9            6
Transportation and Public utilities Service                   19              11
Total                                                        168             100%

                                    Figure 7
                                          -26-
                        CONTRACT AUDIT REPORTS
                          Number of              Recommended Savings
Type of Audit              Reports               --11~,thousands)
Construction
 Architect-Engineer
 proposals                     41                         $1,698

  Claims                       28                         10,628
  Initial pricing              12                          1,641

  Change Orders                14                            760
  Construction Management       1                             75
  Lease Escalation              5                            606
  Total Construction          101                     $15,408

Other
 Multiple Award Contracts
    Preaward                   25                          $4,055
    Postaward                  19                           5,292
  Time and Material
    Contracts                  10                             763
  Preaward proposals           48                           2,892
  Cost Type Contracts          24                             545
  Other                         7                             238
  Total Other                 133                         $13,785
Total - Contract Audits       234                         $29,193

                            Figure 8




                                    -27-
         G.   INSPECTION REPORTS
      Thirty-eight inspection reports were issued during the
  reporting period. They are listed in Appendix II •. These
  reports address some 222 leases, construction projects, and
  contracts/work orders totalling approximately $49 million
  worth of services and/or work. The distribution of these
  reports is set forth in Figure 9. Further information
  concerning inspections of particular importance is set
  forth in Section VII.B.
      As a result of our inspection effort we recommended
  contract and managerial actions which could result in more
  than $1.4 million in savings. Our recommendations were
  accomplished through selective inspection of work either in
  progress or at time of delivery. Our recommendations place
  responsibility directly on GSA Contracting Officers to
  ensure that the Government gets full value for each dollar
  spent.

                   INSPECTION REPORTS ISSUED
                                                Contracts/Work
program Area           Reports Issued          Orders Inspected
Leasing                         10                    22
Construction                     6                    18

Buildings Operations            17                   161
Energy                           4                     9
Federal Supply                   1                   12

                                38                   222

                               Figure 9


         H.   INVESTIGATIONS
     Figure 10 illustrates the types of investigative cases
 which were opened and closed during this reporting period.
 Further details concerning our investigative efforts are
 set    th in Section VII.C. and D.




                                     -28-
                 INVESTIGATIVE WORKLOAD ACTIVITY
             APRIL 1, 1980 THROUGH SEPTEMBER 30, 1980

                        pending                          pending
                        4/1/80       Opened     Closed   9/30/80
Case Catesor:(
White collar crime
(fraud, bribery,
embezzlement,
and false claims)         405             256     223      438
Other crimes in
GSA occupied space         56              58      37       77
Contractor
suspension/debarment       53              37      11       79
Employee misconduct        45              34      33       46
proactive
investiqation              21               9       1       29
Other                      45              35      27       53
Total                    -625             426     332      719
                                Fl.gure


        I.   WHISTLE-BLOWER'S HOTLINE
       Our "hotline" (toll-free telephone number) and post
   office box number have been extensively advertised.
   Recently 3,500 whistle-blower posters were distributed
   to all 11 GSA regions.    During this reporting period, we
   received approximately 560 telephone calls on our hotline
   and 17 pieces of mail addressed to our post office box.
   We have also been assigned 27 complaints received on the
   GAO hotline. These matters were referred to the various
   offices of the Office of Inspector General for appropriate
   action.




                                    -29-
VII.        HIGHLIGHTS OF ACTIVITIES

       A.      OFFICE OF AUDITS
    The work of the Office of Audits is divided into 2 broad
program areas, internal audits and contract audits. Internal
audits address only GSA operations. They include recommendations
for more effective, efficient, and economical accomplishment of
agency functions. Contract audits focus on GSA contractors or
potential contractors. In addition to providing essential infor-
mation to contracting officials, these audits enable our Office
to detect improper and illegal practices at an early stage.
    Examples of 2 important internal audits completed during
this reporting period are summarized below:
               1.   Administration of Stockpile Sales program
    Our review of GSAus stockpile sales program revealed a number
of serious problems. We found that 50 out of 57 contracts for
the sale of manganese, tin, and tungsten valued at over $22
million had been awarded on a sole source basis. GSA also
granted buyers of stockpiled materials over $3 million in sales
allowances and discounts without supporting documentation or
written justification. In addition, contract provisions were not
clear, and billings were sometimes incorrect. For example, one
customer was underbilled by $1 million. We also found that phy-
sical security was inadequate for some valuable stockpiled
materials. We recommended specific corrective actions for each
deficiency and suggested the preparation of explicit guidelines
as a means of further improving the program. At our recommenda-
tion, the $1 million in underbilling was collected.
               2.   Contract Award and Administration practices in
                    PBS's Design and Construction Division (DCD)
     Our review of this area indicated that DCD had not properly
followed procurement procedures. We found a need for many impro-
vements, including     tter control over PBS bids received by the
Business Service        r, quality control reviews of procurement
documents and specifications, more reliable and timely indepen-
dent Government estimates, and improved controls over progress
payments. We made several major recommendations, ~, that
prescribed procedures concerning the administrationCiE change
orders to contracts whose prices are to be determined later be
strictly followed, that consultant recommendations be promptly
evaluated, that post-bid opening estimate adjustments be fully
documented and justifi , and that the quality of procurement
documents     reviewed    lor to their release.




                                       -30-
    The findings of some major contract audits are summarized
as follows:
         1.   Contract Termination Settlement for Construction
              Work at the Pentagon
    We audited a $374,000 settlement proposal and delay claim
submitted in connection with a contract to modernize restrooms at
the pentagon. We found that the claim contained numerous mathe-
matical errors, duplications, and unallowable costs. Comparing
the contractor's incurred costs with the progress payments
received, we concluded that the contractor was only entitJ...ed to
$445.
         2.   University of the District of Columbia, Washington,
              D.C.
    We reviewed a $225,000 delay claim involving the University
of the District of Columbia construction project and concluded
that none of the claim could be SUbstantiated. We recommended
that the entire claim be rejected.
         3.   strom Thurmond Federal Building, Columbia,
              South Carolina
    Our review of a $388,200 settlement proposal submitted for
subcontractors as well as the prime contractor concluded that'
there was no contractual relationship between the prime and the
subcontractors. Consequently, we questioned the validity of
$343,594 or 89 percent of the proposal.
         4.   Denver Federal Center's steam Plant, Lakewood,
              Colorado
    We audited a $965,000 claim relating to the conversion of the
steam plant from oil to coal. Because the contractor could not
substantiate 96 percent of the claimed costs, we recommended
payment of only $41,500.
         5.   Social security Administration Payment Center,
              Chicago, Illinois
    After auditing a delay claim for $274,000, we discussed with
the contractor the lack of SUbstantiation for the claim. The
contractor subseqpently reduced the claim to $43,000. We have
recommended that   is amount be reduced by an additional $7 000.
         6.   Engine Maintenance and Repair Contract, Salt
              Lake City, Utah
    In a review of a $4.5 million claim submitted under a time
and materials contract, we found that the contractor had
purchased materials and    ts from an affiliate at a substantial
mark-up. We questioned $693,000 of the claim, of which $600,000



                            -31-
is attributable to the mark-ups. On the basis of the joint
efforts of the Office of Audits, the Office of Investigations,
and the Office of Special projects, the contractor has been
suspended from doing business with the Government, and tpe case
has been referred to the Department of Justice for appropriate
criminal action.
   B.   OFFICE OF INSPECTIONS
    The primary functions of the Office of Inspections are to
deter fraud through a highly visible presence within the
contracting programs, to uncover mismanagement practices and make
recommendations to prevent their recurrence, and to coordinate
with the Office of Investigations on proactive efforts to uncover
fraudulent schemes within the Government. Some of the more
significant reviews conducted by this office are summarized
below:
        1.    Specific Term Contractor Renovations
    Our inspection of renovations being performed in a large
federal building by a term contractor led directly to the elimi-
nation of certain work items which were already being performed
under another contract. Through the elimination of these items,
the Government realized savings of $140,000.
         2.   InsEection of Cooling Tower project
    An inspection of a proposed project to construct a cooling
tower disclosed that the project's design specifications signifi-
cantly overstated the needs of the building in question. As a
result, the specifications were redesigned and the Government
will save approximately $200,000.
         3.   Renovation Inspection
    In conjunction with   the Office of Investigations, the Office
of Inspections reviewed   a renovation contract and found that
$21,900 of $42,600 paid   on 9 change orders was not justified.
The case is still under   investigation to determine whether there
was intent to defraud.
         4.   Baltimore, Maryland Leases
    We reviewed 6 major leases in the Baltimore area in response
to allegations that they had been awarded on the basis of politi-
cal influence. We concluded (1) that favoritism had been shown
in the award of the leases, (2) that over $200,000 of the $8.2
million GSA is paying annually for these leases is for unrequired
space, (3) an overpayment of $7,200 resulted from a miscalcula-
tion of tax and operating cost escalation, and (4) that GSA
should conduct a feasibility study to determine if it should
purchase 2 of the        buildings on which it has now spent over
$5.2 million in improvements.


                                 -32-
         5.   Land Exchange
         Our analysis of a proposed land exchange revealed that
the Government's initial appraisals did not consider the $50,000
"special-use value" of the land owned by the Government. We
recommend that this value be considered in the exchange
negotiations.
         6.   GSA Depot Inspection
    A team of inspectors has been engaged for several months in a
broad review of a major GSA depot. As a result of the findings
of this over-all review, we have undertaken more specific inspec-
tions of certain procedures which may be sllceptible to fraud
         7.   FPRS Contract Review
    In conjunction with the other components of the Office of
Inspector General and the Naval Investigative Service, the Office
of Inspections conducted a documentary and physical review of
services paid for under an FPRS equipment repair contract. We
found that the Government had been overbilled by about 40
percent. Similar reviews have been initiated elsewhere and a
complete report will be issued during the next reporting period.
         8.   Review of Roofing Contracts
    In response to a request from the FBI, we began a review of
contracts for roofing, caulking, and roofing inspection services.
To date we have found serious contract administration problems as
well as GSA approval of poor quality work or work simply not
performed. On the basis of this information one region has
denied 2 contractors the award of contracts on new projects
valued at $1.3 million.
         9.   Contracts - PBS Field Offices
              a.   A review of term contracts at a PBS field
office revealed that, owing to lack of competition, a contractor
realized profits in excess of $111,000 over a 30-month period.
Of this, $7,000 was paid for work not performed. GSA has reco-
vered $6,700.
              b.   Our review of 2 large work orders written
under a term painting contract disclosed a $75,000 overpayment.
A full field inspection is now in progress at this office to
review all contracts issued to this company.
              c.   We reviewed 4 work orders for painting
under a term contract and found overpayments of $18,174 and
$ ,453, inflation of quantities billed to pay for work outside
the contract, and direct violations of procurement regulations.




                                -3
         10.   grand Jury Probes
    Engineering and technical support is being provided on a con-
tinuing basis fo the United states Attorney's Office in Baltimore
in relation to several PBS projects.
   C.   OFFICE OF INVESTIGATIONS
    During this reporting period 27 cases were referred for cri-
minal prosecution. Of these, 22 were developed by the Office of
Investigations, often in conjunction with another component of
the Office of Inspector General. The Office of Investigations
has commenced a program whereby the development of fraud cases
involving high dollar value is stressed.   It has also undertaken
a number of proactive investigations designed to assess the fraud
vulnerability of 10 GSA program areas, such as vehicle repair and
maintenance contracts and buildings manager procurements. Special
agents in a number of GSA regions utilize specially developed
investigative plans to detect criminal conduct by GSA employees
and/or GSA contractors in these areas.
   Selected cases referred for prosecution are summarized below:
         1.    Small Business Fraud
    Our investigation found that a repair and improvement firm
had obtained small business status and a $57,000 GSA small busi-
ness set-aside contract by falsifying contract documents.
Documents obtained through a subpoena showed the company to be
affiliated with 9 other corporations through common
shareholders, directors, and officers. The average gross annual
receipts of the firm and its affiliates exceeded $41 million for
a 3-year period. Consequently, the firm was clearly ineligible
for small business status.
         2.    Guard and Janitorial Contracts
    As part of our continuing investigation into fraud in this
area, we referred 3 cases for prosecution. All involved some
type of fraudulent statement or claim made to the Government.
In one of these cases, we found that a subcontractor had sub-
mitted billings in excess     $20,000 for services not provided
It also violated the Service contract and Contract Work Hours and
Safety Standards Acts by failing to pay its employees at the
required wage rates. This information has been furnished to the
Department of Labor. The subcontractor and 2 of its officers
have been suspended from doing business with the Government.

         3.
    Our investi    ion disclosed that 2 officers of a
scaffolding and hoisti    f rm had submitted false documentation
to support a fictitious claim. Had the f       documents not been
discovered, the loss to the Government would       been in excess
of $55,000.

                                   --34-
         4.   ~ederal   Donated Property Program Fraud
    We have referred 3 cases for prosecution involving fraud in
the Federal Donated Property program. In each case, an eligible
donee acquired surplus federal property and either converted it
to personal use or sold the property on the open market.
    D.   OFFICE OF SPECIAL PROJECTS
    In addition to providing legal assistance relating to the func-
tions of the Office of Inspector General, the Office of Special
projects conducts complex reviews, audits, and investigations,
both independently and in coordination with the 3 other
components of the Office of Inspector General. Also, the office
has often served as a point of contact with other law enforcement
authorities. Examples of the types of activities undertaken by
the Office of Special projects are summarized below:
         1.   Inter-Inspector General Activities
     Representatives of the Office of Special Projects have par-
ticipated with representatives of other Inspectors General in
coordinating the Government's efforts to combat fraud, waste,
abuse, and mismanagement. These inter-Inspector General projects
have addressed proposed federal legislation, the use of
Inspector General subpoenas, procedures regarding consultant
contract procurement and administration, suspension and
debarment of Government contractors, recommendations regarding
the search warrant authority of Inspectors General, and the
mechanics of coordination between Inspectors General and the
FBI.
         2.   Referrals for Prosecution
    Representatives of the office provided assistance in many of
the significant cases reported above. In addition, the Office of
Special Projects also referred the following cases for criminal
prosecution:
                a large non-minority corporation establishing
                a minority "front" corporation for the purpose
                of obtaining GSA set-aside contracts for
                minority businesses,
                 a rental car contractor failing to credit GSA
                 with appropriate discounts and overcharging
                 the Government in excess of approximately
                 $75,000, and
                a major GSA office furniture contractor
                engaging in criminal conduct.




                                 -35-
APPENDICES
APPENDIX I                   REPORT REGISTER
                             CONTRACT AUDITS

                                                            Date of
Number                         Title                         Report

lB-00320-07-07     Pre award Evaluation on Supplemental
                   A/E Proposal, Noftsger-Lawrence-
                   Lawrence-Flesher, Supplemental A/E
                   Services, State of Oklahoma              04/02/80

lA-00326-09-09     Preaward Evaluation of a Mechanical/
                   Engineering Pricing Proposal, Nack
                   and Sunderland                           04/02/80

14-9029-099        Claim for Increased Costs, Huber,
                   Hunt & Nichols, Inc., Contract No.
                   GS-09B-C-7002-SF                         04/04/80

IF-00024-09-09     Preaward Evaluation of an Archi-
                   tectural/Engineering Pricing
                   Proposal, Hermann Zillgens Associates    04/08/80

2B-00347-00-0l     Preaward Evaluation of Pricing
                   Proposal, Security Engineered
                   Machinery, Solicitation No.
                   FCGE-0-75l39-N-1-28-80                   04/08/80

2J-003l2-09-09     Preaward Evaluation of a Revised
                   Proposal for Janitorial Services,
                   unfted Maintenance Services, Inc.,
                   Request for Proposal No. PBS-9PPB-
                   80-0001                                  04/09/80

2J-00323-07-07-D   Pre award Evaluation of Price
                   Proposal, Red Services Company,
                   Inc., New Orleans, LA                    04/09/80

lB-0019l-05-05     Preaward Evaluation of Proposed
                   Overhead Rate, Belli & Belli,
                   Architects and Engineers, Proposal
                   ~o. GS-05BC-90443                        04/11/80

2B-00349-00-05     Preaward Evaluation of Price Proposal,
                   A B. Dick Company, Solicitation No.
                   FCGE-0-75l39-N-1-28-80                   04/11/80

16-9232-022        Change Order Proposal No. 293,
                   The P.J. Carlin Construction Co.,
                   Inc. and Atlas Tile and Marble
                   Works, Inc., (Joint Venture),
                   Contract No. GS-02B-16835                04/14/80

2C-00138-00-09     ~udit Relative to Price Reductions and
                   Defective Pricing, Anderson Jacobson,
                   Inc., Contract No. GS-00C-01346          04/14/80

                                  7-
                                                             Date of
Number                        Title                          Report

lM-00143-02-02    Preaward Evaluation of Pricing
                  Proposal (CPFF), Lasker-Goldman
                  Corporation/Goldman Associates,
                  USDA Solicitation No. 56-A-SEA-79,
                  Letter Contract 50-3K06-0-23              04/14/80

lB-00329-07-07    Preaward Evaluation of Supplemental
                  A/E Proposal, Channell Graham
                  Architecture, Supplemental A/E Services
                  State of New Mexico                       04/14/80

IT-00203-ll-ll    Termination Settlement Proposal,
                  Property Services, Contract No.
                  03C809l80l                                04/15/80

lB-00328-07-07    Pre award Evaluation of Supplemental
                  A/E Proposal, Mehlburger, Tanner,
                  Renshaw, and Assoc., Supplemental A/E
                  Services, State of Arkansas               04/15/80

IF-00009-03-ll    Preaward Evaluation of Change Order
                  Proposal, Wolff & Munier, Inc.,
                  Contract No. GS-03B-78059                 04/16/80

2C-00297-00-06    Price Reduction and Defective Pricing
                  Review, Rawlings Sporting Goods
                  Company, ST. Louis, Missouri,
                  Contract Nos. GS-01S-066l2 and
                  GS-02S-298l3                              04/17/80

2J-00475-04-04    Price Proposal for Cleaning Services,
                  Richard B. Russell Federal Office
                  Building, Superb Maintenance
                  Service, Inc.                             04/17/80

17-9464-066       Pre award Evaluation of Pricing
                  Proposal, Nimrod, Inc./Kozeny-
                  Wagner, Inc., Contract No.
                  GS-06B-13739                              04/18/80

2B-00380-00-02    Preaward Evaluation of Price Pro-
                  posal, Michael Business Machines
                  Corp., Solicitation No.
                  FCGE-0-75l39-N                            04/18/80

IT-00114-ll-llD   Delay and Termination Settlement
                  Proposal, Marlin Associates, Inc.,
                  Contract No. GS-03B-78ll8                 04/21/80




                                  -38-
                                                            Date of
Number                        Title                         _Report

14-8252-044-F-l   Delay Claim, Henry C. Beck Company
                  Federal Building and U.S. Courthouse
                  Fort Lauderdale, Florida, Contract No.
                  GS-04B-16164                              04/22/80

26-9254-055       Lease Escalation Proposal, Investment
                  Properties Associates, Lease No.
                  GS-05BR-9078                              04   3/80

27-9431-114       Review of Price Reduction and
                  Defective Pricing, Sangamo Weston,
                  Inc., Data Recorder Division,
                  Contract No. GS-00C-01340                 04/23/80

IB-00314-02-02    Letter Report of Preaward Proposal
                  for Cost Management Services, Nielsen,
                  Wurster and Associates, Inc.              04/23/80
2J-00318-07-07    Contract Billings, DeRidder Electric
                  Motor Services Inc., Contract No.
                  GS-7DPR-90117                             04/23/80

14-9443-033D      Evaluation of Delay Claim, William F.
                  Klingensmith, Inc., Contract No.
                  GS-03B-78037                              04/24/80

25-8426-033       Final Audit of Thirteen Cost Plus
                  Award Fee Contracts, ENSEC Service
                  Corporation                               04/24/80

IF-00131-09-09    CIa   for Increased Costs,
                  W. Tom Construction, Inc., A
                  Subcontractor to the U.S.     1
                  Bus   ss Administration Under
                  Contract No. GS-09B-C-5044                04/24/80

IB-00331-07-07    Pre      Evaluation     Supplemental
                      Pr                 itectural
                  Group,                   Services,
                  State of Louisiana                        04/24/80

lA-00338-11-04    Pre award Ev     ion of Pri ing
                  Proposal, Stottler, Stagg & Associ-
                  ates, Architects, Eng     rs, planners,
                  Inc    Contract No GS-l    09001          04/24/80

ID-00028-10-10    S      ion    Work Claim, Modern
                  Construction, Incorporated,
                  No. GS-IOB-E-020l4-00                     04/25/80




                                 -39-
                                                              Date of
~umber                           Title                        Report

23-9152-100       Audit Report Relative to Price
                  Reductions, Tektronix, Inc., Contract
                  No. GS-00S-04888                            04/29/80

IT-00480-11-11    Termination Settlement Proposal,
                  Edward Kocharian & Co., Inc.,
                  Contract No. GS-00B-02960                   04/29/80

2J-00257-06-06    Pre award Evaluation of Pricing
                  Proposal, Professional Technical
                  Services, Inc., St. Louis, Missouri         04/30/80

2J-00382-03-11    Preaward Evaluation of Pricing
                  Proposal, Liberty Security Services,
                  Inc., Contract No. GS-03C-90104             04/30/80

2B-00384-00-05    Pre award Evaluation of Price Proposal,
                  Minnesota Mining & Manufacturing
                  Company (3M), Solicitation No.
                  FCGE-0-75139-N-1-28-80                      04/30/80
IT-00353-09-09    Evaluation of a Termination Settlement
                  Proposal, Quality Electric Control and
                  Engineering, GS-09B-C-20524-SF              05/02/80

IF-00004-11-11D   Claim for Increased Costs, Tippetts-
                  Abbett-McCarthy-Stratton, Contract No.
                  PAOP-C-006                                  05/06/80

2F-00359-11-11    Pre award Evaluation of Pricing Proposal,
                  Eccles Security Agency Inc., Contract No.
                  GS-03C-90868                                05/06/80

16-9451-044       Change Order Proposal No. 67, Frank
                  Briscoe Company, Inc., Contract No.
                  GS-04B-16375                                05/07/80

2B-00348-00-05    Pre award Evaluation of Price Proposal,
                  AM Multigraphics, A Division of AM
                  InternatIonal, Inc., Solicitation No.
                  FCGE-0-75139-N-1-28-80                      05/07/80
IS-00172-02-02    Evaluation of Proposal Submitted by
                  C. H. Sanders Construction Co., Inc.,
                  Subcontractor Under SBA Subcontract
                  No. GS-02B-23002(NEG)                       05/09/80

23-8240-112       Price Reduction and Defective
                  Pricing, SCM Corp., Contract No.
                  GS-00S-45226                                05/12/80




                                  -40-
                                                           Date of
Number                         Title                       I~.~E~
IB-003SS-02-02   Letter Report - Preaward Proposal
                 for Supplemental A/E Services, Rupley,
                 Bahler, Blake, Consulting Engineers       05/12/80

IV-000II-03-03   Contract Change Order Proposal,
                 Roofer's Incorporated, Contract No.
                 GS-03B-78S73                              o   3/S0

2A-0047S-02-02   Letter Report - Preaward Evaluation of
                 Pricing Proposal, Thom-Tex Paper Con-
                 verting Corporation, Subcontractor to
                 the Small Business Administration,
                 Solicitation No. FCGP-F2-40041A           OS/14/80
2A-00479-02-02   Letter Report - Preaward Evaluation
                 of Pricing Proposal Thom-Tex Paper
                 Converting Corp., Subcontractor to the
                 Small Business Administration,
                 Solicitation No. 2FC-EAM-NAOSOOQ          OS/14/80

lA-003S1-02-02   Preaward Proposal for A/E Services,
                 Starks, Wurzer, Patterson, Romeo, P. C.   OS/lS/80

2B-00387-00-0S   Preaward Evaluation of Price Proposal,
                 Minnesota Mining & Manufacturing
                 Company (3M), Solicitation No.
                 FCGE-0-7S141-N-2-26-80                    OS/lS/80

2G-0023S-0S-09   Preaward Evaluation of a Pricing
                 Proposal, Chemonics Industries,
                 Solicitation No. SFCB-B3-40311            OS/16/S0

lC-00336-11-11   Preaward Evaluation of Change Order
                 Proposal, Donohoe Construction Co.,
                 Inc., Contract No. GS-03B-7S366           OS/16/80

2J-0039S-04-04   Price Proposal for Guard Services,
                 Miami, Florida, Metropolitan Area,
                 Rankin Security Services, Inc.            OS/16/80

IB-00429-0S-0S   Preaward Evaluation of Proposed
                 Overhead Rate, Lorenz & Williams, Inc.
                 Proposal No. GS-OSBC-90444                OS/19/80

2N-00341-10-10   Claim for Maintenance Costs,
                 Wometco-Lathrop Co.                       OS/20/80

14-9461-05S      Letter Report - Termination Settlement
                 Claim, Turner Construction Co.,
                 Contract No. GS-05BC-S1722                OS/27/80
                                                               Date of
Number                           Title                         Report
lC-00298-03-03     Contract Change Order Proposal,
                   L. K. Comstock & Co., Inc., Contract
                   No. GS-03B-78060                            OS/27/80

2B-00381-00-01     Letter Report - Preaward Evaluation of
                   Price Proposal - FSS Schedule 36 II
                   A & B, Pitney Bowes, Inc., solicitation
                   FCGE-0-7Sl39-N-1-28-80                      OS/27/80
16-9S26-033        Preaward Evaluation of Change Order
                   Proposal, George Hyman Construction
                   Co., Contract No. GS-00B-0133l              OS/28/80
2L-004l0-03-03     Lease Escalation Proposal, Richard B.
                   Herman and Company, Curtis Building,
                   Lease No. GS-02B-lS02S                      OS/28/80
IT-00414-0l-01     Termination for Convenience Claim,
                   David J. Bond, Contract No.
                   GS-OIB-01882                                OS/28/80
28-9S33-113-D-SI   Evaluation of Updated Price Proposal,
                   Norden Systems Inc., Solicitation No.
                   GSC-CDPS-C-00013-N-7-11-79                  OS/29/80

2H-OOl12-04-04D(a) Term Service Contract, Computer
                   Sciences Corp., Applied Technology
                   Division, Huntsville, Alabama,
                   Contract No. GS-04S-2271S                   OS/29/80
2K-00239-00-l1     Ten Fixed Price Contracts, Miracle
                   Contractors, Inc.                           OS/29/80
16-9481-066        Evaluation of Change Order Proposal,
                   Hoel-Steffen Construction Co.,
                   Contract No. GS-06B-81101                   OS/30/80
2A-00S18-0S-0S     Preaward Evaluation of Pricing
                   Proposal, Rollins Container, Inc.,
                   RFP SFCC-08-80-023N                         OS/30/80
2D-00499-02-02     Letter Report - Termination Claim,
                   A. B. Cowles Company, Inc. Contract
                   No. GS-00S-98124                          06/03/80
2D-00378-0l-07     Costs Claimed, Termination for
                   Convenience, Oscar Carvajal Saddlery
                   Co., Contract No. GS-00S-482S6            06/04/80




                                  -42-
                                                             Date of
Number                              Title                    Report
2A-00482-00-26-D   Evaluation of Price Proposal, Bay
                   Laboratories, Inc., Solicitation
                   No. FCGS-Z-37371-N-12-14-79              06/04/80

2A-00500-02-02     Letter Report - Preaward Evaluation
                   of Pricing Proposal, Thom-Tex Paper
                   Converting Corporation, Subcontractor
                   to the Small Business Administrat        06/04/80

2E-00505-00-09     Letter Report - Eligibility as a
                   Regular Dealer Under Walsh-Healey,
                   Specialty Tools, Inc.                    06/04/80

2J-00501-02-02     Preaward Evaluation of Pricing
                   Proposal for Guard Services,
                   Vigilantes, Inc., Contract No.
                   GS-02B-19541(NEG)                        06/05/80

IB-00430-05-05     Preaward Evaluation of Proposed
                   Overhead Rate, Hanscomb Associates,
                                .
                   Inc., Proposal No. GS-05BC-90445         06/06/80

2J-00477-02-02-D   Evaluation of Proposal Submitted
                   by Urban Data Systems, Inc., Newark,
                   New Jersey, Solicitation No.
                   2FC-MTS-N-A0479Q                         06/06/80

2J-00476-10-10     Preaward Evaluation of Pricing
                   Proposal, Decor Maintenance Company,
                   Inc., Contract No. GS-IOB-50479-01       06/09/80

26-9255-055        Lease Escalation Proposal, Investment
                   Properties Associates, Lease No.
                   GS-05BR-I0736                            06/10/80

IT-00419-04-04     Termination Claim, Vehicle
                   Maintenance Facility and Parking
                   Structure, Barnhill Contracting
                   Co., Contract No. GS-04B-16998           06/11/80
22-9041-088        Billings Submitted Under Time and
                   Material Contract Nos. GS-08W-00413
                   and GS-08W-00649, Midwest Engine, Inc.   06/12/80

26-9158-022        Lease Escalation Proposal, Ogdensburg
                      dge and Port Authority, Ogdensburg,
                   New York, Lease No. GS-02B-15579         06/12/80

lC-00196-06-06     Evaluation of Change Order Proposal,
                   M.C.& D. Capital Corporation,
                   Contract No. GS-06B-71072                06/12/80



                               -43-
                                                               Date of
Number                                Title                    Report
2J-00258-05-05      Letter Report - Proposed Overhead
                    Rate, Reeves Cleaning Contractors,
                    Inc., Proposal No. GS-05B-41906           06/12/80
2S-00266-00-09      Letter Report - Price Reduction and
                    Defective Pricing, Ro1m Corporation,
                    Santa Clara, California, Contract
                    No. GS-00C-01516                          06/12/80
IB-00481-02-02      Preaward Proposal for A/E Services,
                    The Stephens Associates, P.C.             06/12/80

2G-00064-00-04      Price ~eduction and Defective Pricing,
                    Sunair Electronics, Inc., Contract
                    No. GS-00S-07120                          06/16/80
2J-00237-05-05(a)   Letter Report - Contract Billings,
                    Rainey's Security Agency, Inc.
                    Contract No. GS-05B-27505                 06/16/80

23-9428-113         Price Reduction/Defective Pricing
                    Audit, Watkins-Johnson Company,
                    Contract No. GS-00S-44591                 06/17/80
1C-00417-03-03      Contract Change Order Proposal,
                    Wolff & Munier, Inc., Contract
                    No. GS-03B-78059, RCP No. 10-113MW        06/17/80
1D-00197-08-08      Contract Claim for Increased Costs,
                    Centric Corp. Constructors,
                    Contract No. GS-08B-I0155                 06/18/80
2J-00524-05-05      Preaward Evaluation of Pricing
                    Proposal, Johnson & Gordon Janitor
                    Service, Solicitation No.
                    GS-05B-42041                              06/19/80
ID-00355-03-11      Claim for Increased Costs,
                    Woodbridge Construction Company,
                    Contract No. GS-03B-70043                 06/20/80
2B-00408-00-05      Letter Report - Preaward Evaluation
                    of Price Proposal, AM Multigraphics,
                    A Division of AM International, Inc.,
                    Solicitation No. FCGE-M6-75147-N-5-8-80   06/20/80

2X-00376-04-04      Letter Report - Panama City Tire
                    and Recapping Company                     06/23/80




                                 -44-
                                                              Date of
Number                                Title                  _~ort_

lC-00503-06-06      Evaluation of Change Order Proposal,
                    The Coronado Company, Contract No.
                    GS-06B-93090                             06/24/80

2J-00236-02-02(A)   Preaward Proposal for Security
                    Guard Services, City Wide Security
                    Services, Inc., Subcontractor Under
                    U.S. Small Business Administration
                    RFP-2PBO-TCH-19,468 (NEG)                06/26/80

lD-00335-ll-ll      Claim for Increased Costs,
                    John J. Kirlin, Inc., Contract No.
                    GS-03B-88l49                             06/27/80

2K-00352-09-09      Diamond Janitorial Service and Supply,
                    Inc., Contract No. GS-09B-0-1909,
                    January 1, 1978 thru December 31, 1979   06/27/80
2A-005l4-00-26-D    Evaluation of Price Proposal, Jet
                    Industries, Inc., solicitation No.
                    FCTL-P3-A5566-N-4-ll-80                  06/30/80

2G-00059-l0-10      Relative to Price Reduction,
                    Fairmount Motor Products, Division
                    of Avnet, Inc., Contract No.
                    GS-lOS-39527                             06/30/80
2J-00248-l0-l0      Preaward Evaluation of Pricing
                    Proposal, Clean Services, Inc.,
                    Contract No. GS-lOB-50480-0l             06/30/80
2A-00385-05-05      Preaward Evaluation of Pricing
                    Proposal Costs, Petoskey Plastics,
                    Inc., Proposal 5FCB-l3-80-035(N)         06/30/80
lA-00508-07-07      Preaward Evaluation of A/E Pricing
                    Proposal, CGR, Inc., and Ashley,
                    Humphries and Partners, Inc.,
                    Joint Venture                            07/03/80
lA-00486-ll-02      Preaward Evaluation of Pricing
                    Proposal for Structural Engineering
                    Services, Ewell Finley, P.C., Sub-
                    contractor to Shepley, Bulfinch,
                    Richardson and Abbott, Inc., Under
                    Prime Contract No. GS-IlB-09007          07/09/80
2G-003l7-07-07      Vehicle Rental Agreements, Contract
                    Nos. GS-07S-037l5 and GS-07S-03804
                    Southwest-Tex Leasing Company, Inc.      07/15/80




                                -45-
                                                               Date of
Number                              Title                      Report
2B-00394-00-11      Letter Report - Preaward Evaluation
                    Proposal, FSS Schedule 36, Part IV,
                    Capital Consultant Services,
                    Arlington, VA, Solicitation No.
                    FCGE-M6-75147                             07/15/80

lC-00525-03-11      Preaward Evaluation of Change Order
                    Proposal, Wolff & Munier, Inc.,
                    Contract No. GS-03B-78059                 07/16/80
2J-00556-04-04      Price Proposal for Cleaning Services,
                    Oak Ridge, Tennessee FOB, Colbar, Inc.    07/16/80
2B-00388-00-04      Preaward Evaluation of Price Proposal,
                    Saxon Business Products, Inc.,
                    Solicitation FCGE-M6-75147                07/17/80
2J-00236-02-02(B)   Preaward Proposal for Security Guard
                    Services, City Wide Security Services,
                    Inc., Subcontractor under U.S. SBA
                    RFP-2PBO-DD-19,452 (NEG)                  07/18/80
lA-00487-11-02      Preaward Evaluation of Pricing Proposal
                    for Geotechnical Supplementary Consultant
                    Services, Meuser, Rutledge, Johnson &
                    Desimone, Subcontractor to Shepley,
                    Bulfinch, Richardson and Abbott, Inc.,
                    Under Prime Contract No. GS-IIB-09007     07/18/80
IF-00522-07-07      Preaward Evaluation of Lease
                    Escalation Proposal, Lease Number
                    GS-07B-I0386                              07/18/80
14-8360-057         Claim for Increased Costs, Owens-
                    Corning Fiberglas Corporation,
                    Contract No. GS-00B-Ol141                 07/21/80
IB-00539-02-02-D    Evaluation of Proposal Rates
                    Submitted by Beatty and Beatty,
                    Brooklyn, New York                        07/21/80
2B-00386-00-05      Pre award Evaluation of Price Proposal,
                    Bell & Howell Co., Microfilm Products
                    Division, FCGE-I-75141-N-2-26-80          07/22/80

2B-00520-00-01      Letter Report - Preaward Evaluation of
                    Price Proposal - FSS Schedule 6711B,
                    Polaroid Corporation, Solicitation
                    FCGE-C-75137-N-IO-24-79                   07/23/80




                                   -46-
                                                                Date of
Number                                  Title                   Report

lA-00415-11-11      Preaward Evaluation of A/E Pricing
                    Proposal, Keyes, Condon & Florance,
                    Contract No. GS-03B-89030                  07/24/80

12-7275-100         Construction Management Contract,
                    Hoffman Construction Company,
                    GS-IOB-E-01677                             07/25/80
2J-00259-02-02      Pre award Proposal for Security Guard
                    Services, Masgon Patrol Services,
                    Inc., Subcontractor Under U.S. SBA
                    RFP-2PBO-TCH-19,507(NEG)                   07/25/80
2X-00377-04-04      Specification Rubber Was Not
                    Always Used to Recap Tires                 07/29/80
lA-00436-09-09      Preaward Evaluation of A/E Pricing
                    Proposal, Krommenhoek/McKeown &
                    Associates                                 07/30/80
2J-00595-09-09      Preaward Evaluation of a Pricing
                    Proposal for Janitorial Services,
                    Spotless Janitorial Service, Request
                    for Proposal No. PBS-9PPB-80-0049          07/30/80
16-9024-066         Evaluation of Value Engineering
                    Change Order Proposal, Albers
                    Construction Company, Inc.,
                    Contract No. GS-06B-8l150                  07/31/80
2J-00236-02-02(C)   Preaward Proposal for Securi   Guard
                    Services Ci    Wide Security Services,
                     nc., Subcontractor Under u.S. SBA
                    RFP-2PBO-TCH-19,508(NEG)                   07/31/80

2   0337-11~11      Preaward Evaluation of Pr ing Proposal,
                    J  Callaham Rufuse Hauling, Inc.,
                    Contract No. GS-03   1356                  07/31/80

    0389-00-02      Pre award Evaluation    Price Proposal,
                    Eastman        Co., Solicitation No.
                    FCGE-M6-7 147-N                            07/31/80

    0502-09-09      Evaluation of a Termination Settlement
                          al Crown Fence and Supply Co.,
                    LTD. GS-09B-00510-SF                       07/31/80

    0519-10-10      Pre      Evaluation of Pricing Proposal,
                    Northwest Building Maintenance/Carpet
                    Sa   , Inc., Contract No.
                    GS-l    50518-01                           07/31/80



                                 -47-
                                                              Date of
Number                                  Title                 Report
2A-00S4S-0S-0S-D   Evaluation of Proposal Submitted by
                   Glopak Corporation, Newark, N.J.          07/31/80

IB-00644-06-06     Evaluation of Pricing Proposal,
                   Kirkham, Michael and Associates,
                   Contract No. GS-06B-8120S                 07/31/80
lC-00128-02-02     Proposal for Construction Contract
                   Change Order, S. Puma Co., Inc.,
                   Contract No. GS-02B-78083                 08/07/80

2Q-00S29-00-26-D   Pre award Evaluation of Pricing
                   Proposal, OAO Corporation,
                   Solicitation No. CDPXW-79-00028-M-W7      08/07/80

2J-00S70-09-09-D   Price Proposal for Armed Uniformed
                   Guard Services, Stovall Security
                   Services, Inc., Request for Proposal
                   No. PBS-9PPB-80-0060                      08/07/80

2A-00S47-00-26-D   Preaward Evaluation of Pricing
                   Proposal, Berntsen Cast Products,
                   Inc., RFP No. FCGS-B-90190-2-19-80        08/08/80

IB-00422-04-04     Preaward Evaluation of Rates,
                   Renneker, Smith, Kirkwood &
                   Associates, Inc., Supplemental
                   A/E Services, State of Alabama            08/11/80

IB-0042S-04-04     Preaward Evaluation of Supplemental
                   A/E Proposal, Chrisman, Miller,
                   Wallace, Inc., Supplemental A/E
                   Services, State of Kentucky               08/11/80

2J-00236-02-02-D   Preaward Proposals for Security Guard
                   Services, City Wide Security Services,
                   Inc., Subcontractor under U.S. SBA
                   RFP-2PBO-DD-19,511(NEG)                   08/13/80
IB-00424-04-04     Preaward Evaluation of Rates,
                   Gantt/Huberman Associates, Supplemental
                   A/E Services, State of North Carolina     08/13/80
2W-00S16-09-09     Audit of Time and Materials Contract,
                   Modern Office Supply, Contract No.
                   GS-9DPR-90304, October 1, 1979, thru
                   May 31, 1980                              08/13/80




                                 -48-
                                                                Date of
Number                                 Title                    Report
2A-005l7-04-04     Pre award Evaluation of Cost arid Pricing
                   Data for Security Padlocks, Sargent &
                   Greenleaf, Inc., Nicholasville,
                   Kentucky                                    08/13/80
2B-00550-00-09     Preaward Evaluation of Price Proposal,
                   Datagraphix, Inc., Solicitation No.
                   FCGE-I-75l4l-N-2-26-80                      08/14/80

lD-00655-08-08     Claim for Increased Costs, Langfur
                   Construction Corp., Contract No.
                   GS-08B-78503                                08/14/80

2G-00070-09-09     Requirements Type Term Contract,
                   Ray & Ray's Carpet & Linoleum, Inc.,
                   Oakland, California, Contract No.
                   GS-09W-80232, Subcontract No.
                   SB-9308(a) 78-C-392                         08/15/80

lS-00553-06-06     Preaward Evaluation of Pricing
                   Proposal, Tom Martinis Asphalt and
                   Paving Company/Hemphill Contracting
                   Co., Inc., St. Louis, MO                    08/15/80

lS-00172-02-02-D(a) Evaluation of Price Proposal,
                   ~erge Elevator Company, Inc.,
                   Subcontractor to C. H. Sanders
                   Construction Co., Inc., Solicitation
                   Nos. INJ-77027, INJ-772l0, RNJ-78094        08/19/80

2K-007l9-04-04     Second Year Audit of Cost Plus Award
                   Fee Contract, American Masters
                   Cleaning Systems, Inc., IRS Center,
                   Chamblee, Georgia, Contract No.
                   GS-04B-16870                                08/19/80

2X-00375-09-09     Service Contracts, McCoy's Super
                   Tread, Inc., Contract Nos.
                   GS-9DPR-90l96 and GS-9DPR-80l82
                   for the periods July 1, 1978,
                   through June 30, 1979, and
                   July 1, 1979, through June 30, 1980         08/22/80

lB-0043l-05-05     Preaward Evaluation of Proposed
                   Overhead Rates, TMP Associates, Inc.        08/22/80

2.J-00475-04-04A   Cost Plus Fixed Fee 8(a) Contract,
                   Richard B. Russell Federal Office
                   Building and Courthouse, Superb
                   Maintenance Service, Inc.,
                   Contract No. GS-04B-50l05(NEG)              08/22/80




                                -49-
                                                              Date of
Number                               Title                    Report
lD-00439-09-09     Claim for Increased Costs, Apersey
                   Construction, Contract No.
                   GS-09B-20335                              08/22/80
2J-00498-02-02     Pre award Proposal for Security Guard
                   Services, Masgon Patrol Services,
                   Inc., Subcontractor Under U.S. SBA
                   RFP-2PPB-TCH-19,525(NEG)                  08/25/80

lB-00538-02-02-D   Preaward Evaluation of Pricing Proposal
                   for Supplemental Architect-Engineer
                   Services, Lehman Architectural
                   Partnership, Livingston, N.J.             08/25/80

2R-00520-00-03     Pre award Evaluation of Pricing
                   Proposals, GRM Corporation, Solicita-
                   tion No. GSC-CDPS-C-K-0000l-N-11-2l-79    08/26/80

2W-00473-04-04     Automated Data Devices, Inc.,
                   T & M Contractor, Contract Nos.
                   GS-4DPR-90ll7, GS-4DPR-9027l, and
                   GS-4DPR-90275                             08/28/80

lS-00729-0l-0l     Preaward Evaluation of Repair and
                   Alteration Proposal, Pyramid
                   Development Corporation, Contract
                   No. GS-OlB-0196l                          08/28/80

lS-00730-0l-0l     Preaward Evaluation of Labor and
                   Overhead Rates, Cannon Design, Inc.,
                   et al., Joint Venture, Contract No.
                   GS-OlB-9l78l                              08/28/80

lS-00732-08-08     Preaward Evaluation of Pricing
                   Proposal, J. A. Walker Company,
                   Project No. R-CO-78-042                   08/28/80
                                                               , -, - -

2J-00743-06-06     Preaward Evaluation of Pricing
                   Proposal, Ridley's Southside
                   Janitorial Service, Inc., Kansas
                   City, Missouri                            08/28/80

2H-00067-00-07     Price Reduction/Defective Pricing,
                   Datapoint Corporation, Contract No.
                   GS-00C-01370                              08/29/80

2J-00397-l0-l0     Preaward Evaluation of Pricing
                   Proposal, Coast Janitorial Service,
                   Inc., Contract No. GS-lO-B-50525-0l       08/29/80




                                  -50-
                                                                 Date of
Number                                  Title                    Report
2B-00409-00-05       Pre award Evaluation of Price Proposal,
                     AM Bruning, A Division of AM Inter-
                     national, Inc., Solicitation No.
                     FCGE-M6-75147-N-5-8-80                     08/29/80
ID-00446-11-11       Claim for Increased Construction
                     Management Fees, Parametric Inc.,
                     Contract No. GS-03B-69008                  08/29/80

2B-00586-00-04       Preaward Evaluation of Pricing
                     Proposal, Lanier Business Products,
                     Inc., Solicitation No. FCGE-D-75140-N      08/29/80
2B-00591-00-05       Pre award Evaluation of Price
                     Proposal, Victor Business Products,
                     Subsidiary of Walter Kidde & Co., Inc.,
                     Solicitation No. FCGE-R-75142-N-2-12-80    08/29/80
IB-00637-02-02       Letter Report - Preaward Proposal for
                     Architectural/Engineering Services,
                     Gutwein-Guenther Professional Assoc.       09/02/80

2K-00250-04-04(A)    Cost Plus Award Fee Contract, Kentucky
                     Building Maintenance, Inc., Clifford
                     Davis Federal Building, IRS Center
                     and Federal Supply Store, Memphis,
                     Tennessee, Contract No. GS-04B-16868       09/03/80
2K-00250-04-04(B)    Cost Plus Award Fee Contract, Kentucky
                     Building Maintenance, Inc., IRS Center,
                     Philadelphia, PA, Contract Nos.
                     03C8084901 (NEG}-2, and
                     03C9003601 (NEG)-3                         09/03/80

2K-00250-04-04(C)    Cost Plus Award Fee Contract, Kentucky
                     Building Maintenance, Inc., Interior
                     Building, Washington, D.C., Contract
                     Nos. 03C7090001 (NEG)-2 and
                     03C9003301 (NEG)-3                         09/03/80
2K-00250-04-04 (D)   Cost Plus Award Fee Contract, Kentucky
                     Building Maintenance, Inc., GSA
                     Regional Office Building and Southwest
                     Bus Terminal, Washington, D.C.,
                     Contract No. 03C8090401 (NEG)-2            09/03/80

2K-00250-04-04(E)    Cost Plus Award Fee Contract, Kentucky
                     Building Maintenance, Inc., GSA
                     Administrative Building, Washington, DC,
                     Contract Nos. 03C8084101 (NEG)-2 and
                     03C9003401 (NEG)-3                         09/03/80




                                  -51-
                                                                Date of
Number                                   Title                  Report
2K-00250-04-04(F)   Cost Plus Award Fee Contract, Kentucky
                    Building Maintenance, Inc., Broadway
                    and Dunbar Buildings, Cincinnati, Ohio,
                    Contract No. GS-05BB-4l77l (NEG)           09/03/80
2K-00250-04-04(G)   Cost Plus Award Fee Contract, Kentucky
                    Building Maintenance, Inc., Federal
                    Building and Courthouse, Dayton, Ohio,
                    Contract No. GS-05BB-4l842 (NEG)           09/03/80
2K-00250-04-04(H)   Cost Plus Award Fee Contract, Kentucky
                    Building Maintenance, Inc., John C.
                    Kluczynski Federal Building and
                    U.s. Postal Building, Chicago, Illinois,
                    Contract No. GS-05B-4l892 (NEG)            09/03/80
lB-00423-04-04      Preaward Evaluation of Rates, Franklin
                    Group Architect P.A., Supplemental A/E
                    Services, State of Tennessee               09/03/80
2W-00741-09-09      Preaward Accounting System Survey,
                    Mojave Equipment Co., Invitation for
                    Bid No. GSD-9DPR-00003                     09/03/80
2W-00742-09-09      Letter Report - Preaward Accounting
                    System Survey, Truck Tractor Service
                    Co., IFB No. GSD-9DPR-00003                09/03/80

2B-00383-00-08      Preaward Evaluation of Pricing
                    Proposal, Information Handling
                    Services, Solicitation No.
                    FCGE-I-75l4l-N-2-26-80                     09/05/80
lA-00437-09-09      Preaward Evaluation of A/E Pricing
                    Proposal, Neptune & Thomas Associates,
                    Contract No. GS-09B-7l352                  09/05/80
2J-007l0-07-07      Preaward Evaluation of Pricing Proposal,
                    Texas Security Police Inc., RFP No.
                    GS-07B-20843                               09/05/80
lQ-00654-08-08      Preaward Evaluation of Pricing Proposal
                    for Term Contract, Drapes Engineering,
                    Inc., Project No. Z-CO-80-002              09/08/80
2B-00551-00-03      Preaward Evaluation of Pricing Proposal,
                    Kardex Systems, Inc., Solicitation
                    FCGE-Y-3-75090-N-4-4-80                    09/10/80




                                  -52-
                                                                Date of
Number                                 Title                   ._"~~_
lJ-00807-ll-ll      Letter Report - City Building Corp.
                    Claim for 1612 K Street, N~W., Lease
                    No. GS-03B-06426                           09/10/80
2J-00399-ll-ll      Preaward Evaluation of Pricing Proposal,
                    Howard Security Services, Inc.,
                    Contract No. GS-03C-90S94                  09/11/80

2K-00S13-04-04(A)   Final (Second Year) Audit of Cost
                    Plus Award Fee Contract, Custom
                    Janitorial Service, Federal Office
                    Building & u.S. Courthouse, Atlanta,
                    Georgia, Contract No. GS-04B-16886         09/12/80
2K-00S13-04-04(B)   Final (Second Year and Six & One-Half
                    Month Extension Period) Audit of Cost
                    Plus Award l?ee Contract, Custom
                    Janitorial Service, Social Security
                    Building, Birmingham, Alabama,
                    Contract No. GS-04B-167l4                  09/12/80
2K-00S13-04-04(C)   Final (Second Year & Extension Period)
                    Audit of Cost Plus Award Fee Contract,
                    Custom Janitorial Service, Federal
                    Building, Louisville, Kentucky,
                    Contract No. GS-04B-167ll                  09/12/80
2K-00S13-ll-04(D~   Final (Second Year) Audit of Cost
                    Plus Award Fee Contract, Custom
                    Janitorial Service, New Executive
                    and Winder Buildings, Washington, DC,
                    Contract No. 03C8-0943-0l (NEG)-2          09/12/80

2K-00S13-09-04(E)   Final (First & Second Year) Audit
                    of Cost Plus Award Fee Contract,
                    Custom Janitorial Service, Federal
                    Building, Los Angeles, California,
                    Contract No. 09B-0-2046                    09/12/80

lB-00642-06-06      Pre award Evaluation of Pricing
                    Proposal, Marshall & Brown, Inc.,
                    Kansas City, Missouri                      09/12/80
2J-00709-07-07      Preaward Evaluation of Pricing
                    Proposal, Industrial Cleaning
                    Services, Contract No. GS-07B-20788-l      09/12/80

2W-0074S-07-07      Time and Materials Contract Billings,
                    BMI-Business Machines, Contract No.
                        DPR-00012                              09/12/80




                                -53-
                                                                Date of
Number                                   Title                  Report
lS-00749-07-07      Pre award Evaluation of Pricing
                    Proposal, Red Eagle Construction
                    Co., GS-ITX-80076                          09/12/80
14-8345-033         Claim for Increased Costs, Pierce
                    Associates, Inc., Contract No.
                    GS-00B-01981                               09/15/80
1B-00643-06-06      Pre award Evaluation of Pricing
                    Proposal, The Hoffman Partnership,
                    Inc., St. Louis, Missouri                  09/15/80
lS-00748-07-07      Preaward Evaluation of Pricing
                    Proposal, Red Eagle Construction Co.,
                    GS-RTX-80117                               09/15/80
27-9274-118         Price Reduction and Defective Pricing,
                    Data 100 Corporation, Contract Nos.
                    GS-00C-00744 and GS-00C-01087              09/16/80
2J-00241-05-05(a)   Letter Report - Audit of Contract
                    Billings, Consolidated Security Services
                    Corporation, Contract No. GS-05B~41876     09/16/80
2J-00241-05-05(b)   Letter Report - Audit of Contract
                    Billings, Consolidated Security Services
                    Corporation, Contract No. GS-05B-41887     09/16/80
2B-00391-00-02      Preaward Evaluation of Price Proposal,
                    GAF Corporation, Solicitation No.
                    FCGE-M6-75147-N                            09/16/80
2C-00395-00-01      Price Reduction/Defective Pricing,
                    Wright Line, Inc., Contract No.
                    GS-00S-43244                               09/16/80
1D-00665-03-11      Claim for Increased Costs, Stanco
                    Corporation, Contract No.
                    GS-03B-78058                               09/16/80
23-9281-117(a)      Defective Pricing Review, Curtin
                    Matheson Scientific, Inc.,
                    Contract No. GS-OOS-04943                  09/17/80
23-9281-117(b)      Defective Pricing Review, Curtin
                    Matheson Scientific, Inc., Contract
                    Nos. GS-OOS-04080 and GS-00S-86205         09/17/80
23-9281-117(c)      Defective Pricing Review, Curtin
                    Matheson Scientific, Inc., Contract
                    Nos. GS-OOS-49137 and GS-OOS-92572         09/17/80




                                  -54-
                                                                 Date of
Number                                    Title                  Report
IB-00537-02-02-D      Preaward Evaluation of Pricing
                      Proposal for Supplemental Architect/
                      Engineer Services, Einhorn Yaffee
                      Prescott, P.C.                            09/17/80

2C-004l3 .... 00-07   Price Reduction and Defective Pricing,
                      Austron Inc., Contract No. GS-00S-66299   09/18/80

2B-00578-00-02        Preaward Evaluation of Price Proposal,
                      Eastman Kodak Co., Solicitation No.
                      FCGE-I-75141-N                            09/18/80
lB-00740-04-04        Preaward Evaluation of Supplemental
                      A/E Proposal, Jova/Daniels/Busby, Inc.,
                      Supplemental A/E Services, State of
                      Georgia                                   09/18/80

14-8082-055           Claim for Increased Costs, Economy
                      Mechanical Industries, Inc., Contract
                      No. GS-05BC-81417                         09/18/80

14-8083-055           Claim for Increased Costs, Economy
                      Mechanical Industries, Inc., Sub-
                      contractor to Owens-Corning Fiberglass/
                      Wolff and Munier Inc., Joint Venture,
                      Contract No. GS-OOB-Ol14l                 09/19/80

2A-00734-00-26-D      Evaluation of Price Proposal, Jet
                      Industries, Inc., Solicitation
                      FCTL-P3-A6027-N-7-31-80                   09/19/80

lB-00758-04-04        Preaward Evaluation of Supplemental
                      A/E Proposal, North, Beasley, and
                      Swayze, P.A., Brewer, Godbold Assoc.,
                      Ltd., A Joint Venture, Supplemental
                      A/E Services, State of Mississippi        09/19/80

2    0523-05-05       Preaward Evaluation of Price Proposal,
                      Dun-Well Janitorial Co., Inc.,
                      Solicitation No. GS-05B-42040             09/22/80

    00571-00-01       Preaward Evaluation of Solicitation,
                      Adler-Royal Business Machines, Inc.,
                      Hartford, Connecticut                     09/23/80

2    o   75-00-02     Preaward Evaluation of Pricing
                      Proposal, Olivetti Corp. of America,
                      Solicitation No. FGCE-D-75140-N           09/23/80




                                   -55-
                                                             Date of
Number                                Title                  Report
lA-00660-ll-ll   Evaluation of A/E Change Order
                 Proposal, Jerome W. Lindsey Assoc.,
                 Inc./M. Paul Friedberg & Associates,
                 Joint Venture, Contract No. PA8PC040       09/23/80

2W-00744-07-07   Time and Materials Contract, Rust
                 Tractor, Inc., Contract Nos.
                 GS-7DPR-80081 and GS-7DPR-00006            09/23/80

2C-00343-0-0l    Price Reduction Audit, Waters
                 Associates, Inc., Contract No.
                 GS-00S-04843                               09/24/80
IT-00448-ll-ll   Termination Settlement Proposal,
                 W. M. Schlosser Co., Inc., Contract
                 No. GS-03B-88002                           09/24/80

lB-00759-04-04   Preaward Evaluation of Supplemental
                 A/E Proposal, Clemmer/Bush/Sills/
                 Abernethy Architects, Supplemental
                 A/E Services, State of North Carolina      09/24/80

lD-00007-03-ll   Claim for Increased Costs, Broyles &
                 Broyles, Inc., Contract No.
                 GS-03B-78045                               09/25/80
2D-00242-08-l0   Evaluation of Termination Settlement
                 Claim, Norair Products, Inc.,
                 Contract No. GS-08S-34l22                  09/25/80

lB-0065l-08-08   Preaward Evaluation of Pricing
                 Proposal for Term Contract,
                 Clifford S. Nakata & Associates, P.C.,
                 Project No. Z-CO-80-003                    09/26/80

lS-0076l-ll-ll   Preaward Evaluation of Pricing
                 Proposal, East Atlantic Construction
                 Co., Inc., Contract No. GS-03B-88004       09/26/80

lS-00809-04-04   Pre award Evaluation of Pricing
                 Proposal, Jarodwin Construction
                 Co., Inc., Atlanta, Georgia                09/26/80

lB-008l6-ll-ll    Preaward Evaluation of A/E Pricing
                 .Proposal, The Cooper-Lecky Parternership,
                 Contract No. GS-llB-090l0                  09/26/80

2S-0026l-00-05   Letter Report - Defective Pricing and
                 Price Reductions, COMTEN, Inc.,
                 Contract No. GS-00C-01368                  09/29/80




                               -56-
                                                               Date of
Number                                Title                    Report
2J-00490-ll-ll      Preaward Evaluation of Pricing
                    Proposal, Howard Security Services,
                    Inc., Contract No. GS-llC-00033           09/29/80
2S-004ll-00-03      Price Reduction/Defective Pricing
                    Audit, Aydin Vector Division, Newtown,
                    Pennsylvania, Contract No. GS-00S-66293   09/2   80
lA-0066l-ll-ll-R    Preaward Evaluation of A/E Pricing
                    Proposal, David Volkert & Associates,
                    Inc., Contract No. PA-OPC-05l             09/29/80
2W-00765-06-06      Time and Material Contract,
                    Reppert Marine Sales and Service,
                    Waynesville, Missouri, Contract
                    No. GS-6DPR-00112                         09/29/80
2G-00074-00-0l(a)   Price Reduction/Defective Pricing,
                    Nashua Corporation, Contract No.
                    GS-00S-452l3 (Excluding Renewal)          09/30/80
2V-00585-04-04      Price Proposal for Cleaning
                    Service, Nashville, Tennessee, FOB,
                    Tam, Inc.                                 09/30/80
2B-00598-00-09      Pre award Proposal Evaluation,
                    Memorex Corporation, Solicitation
                    No. GSC-CDPCE-L~00005-N-3-ll-80           09/30/80
2J-00727-ll-ll      Preaward Evaluation of Pricing
                    Proposal, Multivac, Inc., Contract
                    No. GS-llC100187                          09/30/80
lS-00773-06-06      Pre award Evaluation of Pricing
                    Proposal, Courtney Day, Inc.,
                    Kansas City, Missouri                     09/30/80




                                 -57-
                             REPORT REGISTER
                             INTERNAL AUDITS

                                                             Date of
Number                              Title                    Report

72-9365-044-F(1)   Followup - Incentive Type Contracts,
(short form)       Region 4                                  04/01/80

76-8264-044-F(2)   Second Followup - Reconciliation of
(short form)       Budget Activity 53 (Rental of Space)      04/03/80

51-9184-055        Personnel Were Sometimes Lax in Buying
                   Goods and Services and Validating
                   Payments                                  04/03/80

34-8052-088-F(1)   Followup - Motor Pool Operations, Grand
                   Junction, Colorado, Region 8              04/07/80

34-9150-099        Operations of the San Diego Motor Pool
                   Can Be Improved                           04/07/80

75-9521-099        Need For Improvement in Inventory
                   Controls Over Weapons and Badges,
                   Federal Protective Service Divison        04/08/80

5D-00088-04-04     Interim Letter Report - Review of
                   Yearend Obligations, Section 1311         04/11/80

25-8030-F(1)       Second Followup - GAO Report Number
                   LCD-77-228, Additional Precious Metals
                   Can Be Recovered, December 28, 1977       04/18/80

45-7345-113(F)2    Second Followup - Lithium Disposal
                   Program                                   04/18/80

49-9337-113        Administration of the Surplus Personal
                   Property Program Can Be Improved          04/22/80

35-9419-055        Self Service Store Guidance is Fluid,
                   But Further Actions Are Needed to
                   Stabilize Changes Procedures              04/23/80

4F-00083-04-04     Roofing Inspection Program, Public
                   Buildings Service, Region 4               04/25/80

41-00171-01-01     $2 Million Fund Transfer Betwen GSA
                   and the JFK Library Corporation           04/28/80

4D-00274-05-05     Field Office Operations, Milwaukee, WI    04/28/80

25-7085-N          Followup of GAO Report on Veterans
                   Administration Records Processi
                   Center in St. Louis                       4/29/80



                                   58
                                                             Date of
Number                                Title                  Report

34-9404-0SS        Inadequate Review of Vehicle Jacket
                   Files Increases Potential For
                   Duplicate Payments and Repetitive
                   Repairs                                   04/30/80

S2-9l8l-099        Review of Payments to Vendors for
                   Direct-Delivery Merchandise, Region 9     04/30/80

63-9283-063        Need to Enhance Security and Fire-
                   safety Procedures Related to Computer
                   Operations, Region 6                      04/30/80

4D-00078-0S-0S     Building Management Division Field
                   Office, Indianapolis, IN                  04/30/80

SZ-00287-00-ll     Administrative Procedures and Practices
                   of the Japan-United States Friendship
                   Commission - Some Improvements are
                   Needed                                    04/30/80
,3U-00226-08-08    Physical Controls Over Parts and
                   Credit Cards Need Improvement at the
                   Salt Lake City Motor Pool, Region 8       OS/02/80

30-00223-07-07     Need for Improved Management at
                   Dallas Self Service Store, Region 7       OS/06/80

30-00472-0S-0S     Observation of the Physical Inventory
                   Self Service Store Operations,
                   Cincinnati, Ohio                          05/07/80

4S-9237-ll3        Controls and Procedures Used to
                   Safeguard the Narcotics Stockpile
                   Need to be Improved                       05/07/80

52-9473-011        Motor Pool Term Contract Invoices
                   Are Not Being Properly Processed,
                   Region 1                                  OS/08/80

54-809l-0ll-F(1)   Followup - Review of Yearend Closing,
(short form)       Federal Buildings Fund, Region 1          OS/12/80

31-8052-055-F(1)   Followup - Interagency Motor Pool
(short form)       Operations, Cleveland, Ohio               OS/12/80

3l-842l-0S5-F(1)   Followup - Physical Inventory,
(short form)       FSS Supply Distribution Facilities        05/12/80

49-9l35-055-F(l)   Followup - Ways to Improve Oversight
(short form)       Over Donated Personal Property to Help
                   Prevent Unauthorized Uses                 05/12/80



                               -59-
                                                              Date of
Number                           Title                        Report
53-7192-100-F(1)   Followup - Imprest Fund and
(short form)       Cashier Operations, Region 10             05/14/80

5D-00088-11-11     Letter Report - Review of Obligations
                   Under Section 1311, Public Law 663 -
                   Federal Building Fund, FY 1979            05/14/80

6J-00130-00-21     Interagency Audit of Property Management:
                   Management of GSA Furniture               05/14/80

30-00222-10-10     Letter Report - Anchorage Self Service
                   Store Operations                          05/14/80

35-9415-022        Newark, New Jersey, Self Service Store
                   is Not Cost Effective and Should be
                   Closed                                    05/15/80
52-9183-088        Improvements Needed in Motor Pool
                   Vendor Payments, Region 8                 05/15/80

49-9337-099(b)     Controls Over Federally Owned Surplus
                   Property In Arizona Need to be
                   Strengthened, Region 9                    05/19/80

52-9473-099        Procurement and Administration of
                   Vehicle Repairs Need Improvement          05/19/80

5D-00088-01-01     Yearend Obligations, Section 1311,
                   Public Law 663, Region 1                  OS/20/80

34-9149-088        Improvements Needed in Contractor
                   Repair Services and Inventory
                   Controls at Denver Motor Pool,
                   Region 8                                  OS/21/80

5E-00091-01-01     Region 1 is Improperly Authorizing
                   and Controlling Overtime                  OS/21/80

49-9337-088        Letter Report - Personal Property
                   Donation Program, FPRS, Region 8          OS/22/80

86-9221-077        Internal Controls Needed in
                   Competitive Switching Program             OS/23/80

54-6004-113-F(1)   Followup - Transportation Inquiry and
                   Payment System and Related Aspects
                   of Transportation Management              OS/27/80

30-00360-08-08     Letter Report - Observation of Self
                   Service Store Inventory, Fort Douglas,
                   Utah, Region 8                            OS/29/80




                                 -60-
                                                                Date of
  Number                                Title                  ._.~~PS?E..~_
  54-8l5l-l00-F(l)   Followup - Administration and Control
                     of Travel, Region 10                      05/30/80

  73-9323-033        Need to Consider Closing the Central
                     Support Field Office, Bladensburg, MD     05/30/80

  3G-00045-09-09     Operational Improvements Needed for
                     the San Diego Self Service Store,
                     Region 9                                  05/30/80

  31-00047-09-09     Operations of the Redwood City Motor
                     Pool Can Be Improved                      05/30/80

  4D-00274-07-07     Letter Report - Procurement Controls
                     Satisfactory at Tulsa PBS Field
                     Office                                    05/30/80
  37-80l0-ll3-F(2)   Letter Followup - Review of Suitability
                     of Time and Material Contracts, Repair
                     of Heavy Construction Equipment           05/30/80
  3J-00032-04-04     The South Carolina State Agency for
                     Surplus Property Controls Over
                     Donated Property                          06/04/80

  6J-·00484-00-2l    Donation of Surplus Real Property:
                     Compliance Inspection Program             06/04/80

  30-00216-03-03     The Need for Implementation of
                     Regional and Store Controls over
                     Self-Service Store operations,
                     Richmond, Virginia                        06/09/80

  32-9414-088        Administration of Multiple Award
                     Contracts for Prefabricated Structures
                     and Scaffolding, Region 8                 06/10/80

  30-00218-04-04     Inventory Procedures and Store
                     Operations at the Sel   ervice
                     Store, Jacksonville, Florida              06/10/80

  30-00531-05-05     Observation of Physical Inventory,
                     Ft. Sne1li   Sel          Store           06/10/80

/' 5D-00088-06-06    Inadequate Management Control of
                     Federal Buildings Fund Obligations        06/11/80

  3   9409-077       Letter        - Open Market Procure-
                     ment of Motor Pool    icle Parts,
                     Region 7                                  06/12/80




                                  61-
                                                           Date of
Number                              Title                  Report
74-9077-044      Attorneys Negotiating Settlements
                 of Pending Appeals Did Not Obtain
                 Cost or Pricing Data, Region 4 and
                 Central Office                           06/12/80

74-9322-055      Improvements are Needed in DCD's
                 Contract Award and Administration
                 Practices                                06/12/80

32-9412-055      Wider Competition and Lower Unit
                 Prices Can be Achieved by Making
                 Accurate Demand Available to
                 Packaging Suppliers                      06/13/80

73-9324-099-A    Procurement Controls at the Golden
                 Gate Field Office Building Management
                 Division, PBS, Region 9                  06/16/80
73-9324-099-B    Procurement Controls at the Fresno
                 Field Office Buildings Management
                 Division, PBS, Region 9                  06/16/80

5D-00088-08-08   Letter Report - Review of Obligations,
                 Section 1311, Public Law 663, Fiscal
                 Year 1979, Region 8                      06/17/80

74-9216-022      Mismanagement of Construction of the
                 Federal Correctional Institution in
                 Otisville, New York, Resulted In
                 Excessive Costs                          06/18/80

5E-00092-07-07   Need for Closer Adherence to
                 Federal Travel Regulations               06/18/80

5Z-00286-00-ll   Some Improvements of Administrative
                 Procedures and Practices Necessary
                 At the Advisory Committee on Federal
                 Pay                                      06/18/80

31-00050-05-05   People Performing Clerical and
                 Unskilled Laborers' Functions at
                 Indianapolis Motor Pool are Overpaid     06/19/80

5Z-00093-ll-ll   Increased Management Emphasis Should
                 Be Given to the Administrative
                 Practices and Procedures of the
                 United States Commission on Civil
                 Rights                                   06/19/80




                                 62
                                                             Date of
Number                                   Title               ~~-
30-00215-05-05       Letter Report - Review of Inventory
                     Adjustments in Region 5                 06/19/80

5Z-00465-11-11       Administrative Procedures and
                     Practices of the Marine Mammal
                     Commission - Some Improvements Needed   06/19/S0

41-00344-02-02       Overpayments of $2,486,277 for
                     utilities at the U.S. Customs
                     Building in New York, Lease No.
                     GS-02B-15370                            06/20/80

74-8179-044          Third Followup - Construction Manage-
(short form)         ment Project, Talladega, Alabama
                     Federal Correctional Institution,
                     Region 4                                06/23/80
4D-0007S-0S-0S       Letter Report - Procurement of
                     Repair and Alteration Work, Public
                     Buildings Service, Colorado Springs
                     Field Office Buildings Manager,
                     Region 8                                06/23/80

4D~00452-04-04b      Letter Report - Procurement Review of
                     Jacksonville, Florida Buildings
                     Management Office                       06/23/80

32-9133-033          Procedures Pertaining to Non-
                     Competitive Procurements Can be
                     Improved                                06/24/80

4D-00452-08-08       Letter Report - Procurement of Repair
                     and Alteration Work, Public Buildings
                     Service, Salt Lake City Field Office
                     Buildings Manager, Region 8             06/25/80

54-S329-088-F(1}     Followup - Validity of Obligations
                     Totaling $512,923 was Questionable
                     for Fiscal Year 1978 in the Federal
                     Buildings Fund, Region 8                06/26/80

74-8120-04     (2)   Followup - Construction Management
(short form)         Project, Glynco, Georgia, Federal
                     Law Enforcement Training Center         06/26/80

77-942   099         Control Over Leases with Esca   ion
                     Provisions Needs Improvement in
                     Space Management Division, Region 9     06/26/80




                                  6
                                                           Date of
Number                                  Title              Report
32-9326-033        Hand-Held Calculator Procurements
                   Can Be Improved                         06/27/80

4F-00078-01-01     Letter Report - Procurement Controls
                   Satisfactory at Worcester PBS Field
                   Office                                  06/27/80

5D-00158-00-11     GSA's Participation in Airline
                   Half-Fare Coupon Program Generally
                   Satisfactory for Central Office and
                   National Capital Region                 06/27/80

4F-00274-01-01     Letter Report - Procurement Controls
                   Satisfactory at Andover PBS Field
                   Office                                  06/27/80

35-8011-100-F(2)   Second Followup - Limited Review of
                   Self-Service Store Operations,
                   Seattle, Washington, Region 10          06/30/80
35-9418-033        Self-Service Store Operations at the
                   Health, Education, and Welfare
                   Building Could be Improved              06/30/80

4D-00274-09-09     Need to Strengthen Procurement
                   Practices at the West Los Angeles
                   Field Office Buildings Management
                   Division, Public Buildings Service,
                   Region 9                                06/30/80

5Z-00285-00-11     Administrative Practices and
                   Procedures of the National Commission
                   on Social Security Generally
                   Satisfactory - Minor Improvements
                   Needed                                  06/30/80
3U-00304-04-04     Procurement Procedures at the Mobile
                   Motor Pool Did Not Meet GSA Standards   07/01/80

41-00357-04-04     Status of Project Funding, FLETC,
                   Glynco, Georgia                         07/03/80

74-8179-044(b)F(1) Followup - Contracting Officer Does
(short form)       Not Understand Control System He is
                   Responsible for Implementing            07/08/80

3U-00227-03-03     Need to Improve Management of the
                   Harrisburg Interagency Motor Pool       07/10/80




                                 -64-
                                                             Date of
Number                               Title                 __I3:epor~
5Z-00464-11-11    Administrative Practices and
                  Procedures of the Administrative
                  Conference of the United States
                  Generally Satisfactory - Some
                  Improvements Needed                      07/11/80

4M-00474-00-11    Letter Report to Senator Baucus -
                  Administration of Teleprocessing
                  Contracts by GSA                         o   4/80

6A-00492-07-07    Letter Report - Safety and Health
                  Conditions are Good at the Quality
                  Assurance Laboratory, Region 7           07/14/80

49-9408-077       Incompetent Contract Administration
                  warrants Disciplinary Action,
                  Region 7                                 07/18/80

5D-00088-09-09    Need to Further Improve Yearend
                  Reporting of Obligations, Region 9       07/22/80

3C-00372-07-07    Letter Report - Sales of Surplus
                  Property are Conducted Efficiently
                  and Effectively, Region 7                07/22/80

4D-00452-04-04a   Better Inspection Procedures Needed
                  by the Louisville, Kentucky Buildings
                  Management Office                        07/22/80

4D-00694-11-11    Letter Report - Operational and
                  Environmental Problems May Prevent GSA
                  From Meeting Steam Demands During the
                  Forthcoming Winter                       07/23/80
4D-00275-07-07    Need to Strengthen Internal Controls
                  in the Award and Administration of
                  Custodial Contracts, Region 7            07/23/80

5E-00324-07-07    The Public Buildings Service Should
                  Transfer Custody of Excess Office
                  Furniture, Region 7                      07/23/80

5Z-00543-11-11    Administrat    Procedures and
                  Practices of the Se     Commission
                  on Immigration and Ref     Policy -
                  Some Improvements                        07/23/80

6J-00130-00-21                Audit of
                                                           07/24/80




                              -65-
                                                                                Date of
Number
    --0037                    Letter Report - Procedures for
                              Processing Warehouse Refusals are
                              Satisfactory, Region 7                            07/28/80
4    933     099(a)           Con      over F'ederally Owned
                              Surplus       ty in California Need
                              to be Strengthened, Region 9                      07/29/80
4     0167             0      Improvements Can Be Made in
                              Performing and Documenting Contract
                              Awards and Administration                         07/29/80
7    9089-099-1"(1)                    - Review         S           Contract
(      t      )               Awards - Reg    9                                 07
4     027                     I,etter                         s Management
                              1"                            WAg    ion 10       o         o
     9324-099-C               Procurement
                              S     the ned at
                                         Id    s Management
                                            9                                   o         o
      0078-02-02                                          Procurement in
                                                f       Being Performed
                                                                                08/0
4     045      0       7(a)   Need                                  Work
                                     i                              d Office,
                              Santa                                             08/1      o
4D·-0045               7(b)              Improved Procurement
                                         at              PBS 1"
                                                                                08/1     80

4D-00452-03-03(a)

                                                                                08/1      0
4D-00        2-03-03(b)


                                                                                o      2/80
6     054 ·-00-21
                                                                      eason     08/12/80

3C-0020            9   9

                                                                                o



                                                    6
                   5-05     Letter
                               rat       o
4, 9-93 3             (1)
(           form)




       o    8--0     05


                                     o
                                                             Date of
Number                               Title                   Report
32-9410-011        Letter Report - Audit of Publications -
                   Multiple Awards                           08/28/80

35-9416-033        Self-Service Store Operations at the
                   New Executive Office Building Could
                   Be Improved                               08/28/80
37-8335-022-F(1)   Followup - Administration of Time and
(short form)       Material Contracts for Repair and
                   Overhaul of Heavy Construction and
                   Industrial Equipment, Region 2            08/28/80
57-9186-033        Unsatisfactory Administration of the
                   Stockpile Sales Program Requires TOP
                   Management Attention                      08/28/80

34-9405-066        Improved Documentation Needed at
                   the Kansas City,. Missouri Motor Pool     08/29/80

4H-00120-11-11     Financial Audit of the Kuwait Project,
                   International Projects Office, Public
                   Buildings Service                         08/29/80

3U-00225-06-06     Improved Administrative Controls
                   Needed at the Des Moines, Iowa Motor
                   Pool                                      08/29/80
20-6021-FG-Fl      Followup on Audit of Review of Cost
                   Avoidances Reported by the Public
                   Utilities Management Division             09/05/80

3U-00374-07-07     Letter Report - Review of Energy
                   Conservation - Vehicle Fuels Economy      09/05/80

30-00715-05-05     Letter Report - Observation of
                   Physical Inventory, Self-Service
                   Store No. 46, Chicago, Illinois           09/10/80

5C-00757-00-22     Letter Report - Need to Establish
                   Criteria for Selection of GSA
                   Conferences                               09/10/80

37-8336-088-F(l)   Followup - Sales Branch Operations,
                   Federal Property Resources Service,
                   Region 8                                  09/11/80

54-8091-088-F(l)   Letter Followup - Review of Fiscal
                   Year 1977 Year-End Closing, Federal
                   Buildings Fund, Region 8                  09/16/80

3C-00371-11-11-P   Area Utilization Officers'
                   Activities, National Capital Region       09/16/80




                                  -68-
                                                              Date of
Number                                  Title                 Report
3G-00054-09-09      Operational Improvements Needed at
                    the Stockton Supply Distribution
                    Facility                                 09/17/80

4D-00687-07-07(b)   Letter Report - Procurement Controls
                    Satisfactory at Shreveport PBS Field
                    Office                                   09/17/80

5U-00468-07-07      Letter Report - Accounting Controls
                    Relative to LBJ Library Operations
                    are Adequate and Effective               09/18/80

4D-00687-07-07(a)   Letter Report - Procurement Controls
                    Satisfactory at Beaumont PBS Field
                    Office                                   09/18/80

3U-00048-09-09      Operations of the Phoenix Interagency
                    Motor Pool Can Be Improved               09/19/80

3G-00219-05-05      Inside Deliveries to Self-Service
                    Stores Should be Discontinued            09/23/80
34-6016-113-F(3)    3rd Followup - Vehicle Billing Rates     09/24/80
(short form)

5D-·00088-04-04     Except for Budget Activity 53,
                    Rental of Space, Fiscal Year 1979
                    Close-Out Procedures Were Adequately
                    Controlled and Supported Obligations
                    Under Section 1311, Public Law 663       09/24/80

34-9406-077-F(1)    Followup - Fort Worth Motor Pool
(short form)        Operations are Efficient and Effective   09/25/80 .

34-9407-077-F(1)    Followup - Baton Rouge Motor Pool
(short form)        Operations are Efficient and Effective   09/25/80

3C-00209-05-05      More Timely Disposal of Personal
                    Property is Needed                       09/25/80

30-00216-01-01      Poor Control Existed Over Manchester,
                    New Hampshire, Self Service Store
                    Inventor   I Region 1                    09/25/80
4F-00452-01-01      Letter Report - Buildings Manag.ement
                    Office at John W. McCormack Post
                    Office and Courthouse, Boston, MA        09/25/80

5   091-099-F(1)    Followup -         Rev ew of Yearend
(short form)        Obligat              Buildings Fund,
                    FY 1977                                  09/26/80



                                   9
                                                             Date of
Number                                Title                  Report

54-8329-099-F(1)     Followup - $316,000 in Federal
(short form)         Buildings Fund Obligations Invalid,
                     FY 1978                                09/26/80

35-9422-100-F(1)     Followup - Self Service Store
(short form)         Operations, Portland, OR               09/29/80

63-9283-113          computer Security and Firesafety
                     Need to be Improved in the National
                     Capital Region                         09/29/80

4D-00274-06-06       Letter Report - Adequate Procurement
                     Practices and Controls at the
                     Federal Center Buildings Management
                     Field Office, St. Louis, Missouri      09/29/80
35-8277-100':"F(1)   Two Audit Recommendations Not
                     Implemented Regarding Controls to
                     Protect, utilize, and Maximize
                     Returns on Government Assets           09/30/8-0,

37-8010-113-F(3)     3rd Followup - Review of suitability
(short form)         of Time and Material Contracts for
                     Repair of Heavy Construction
                     Equipment                              09/30/80

73-9324-033          Building Management Procurements at
                     the Pentagon Could be Improved         09/30/80

5Z-00677-11-11       Administrative Practices Need to
                     be Improved at the Water Resources
                     Council                                09/30/80

                     Examination of Selected contracts
                     Awarded by the National Archives
                     and Records Service                    8118/80
APPENDIX II
                  INSPECTIONS REPORTS ISSUED

BUILDINGS OPERATIONS

Number                   Title                     Date o.L Report

PBS-B-231-80      Title Withheld - Case Under      September 5, 1980
                  Investigation

PBS-B-230-80      Title Withheld - Case Under      September 5, 1980
                  Investigation

PBS-B-229-80      Review of Allegations of        August 20, 1980
                  Contract Irregularities
                  per Anonymous Letter

PBS-B-227-80      Title Withheld - Case Under     August 20, 1980
                  Investigation

PBS'-B-225-80     Halon Fire Extinguishing        July 23, 1980
                  System, Columbia Plaza,
                  Washington, D.C.

PBS-B-224-80      Recurring Overtime HVAC         August 29, 1980
                  Services for Voice of
                  America International
                  Communication Agency, HEW
                  North Building, HEW Field
                  Office

PBS-B-223-80      Title Withheld - Case Under     June 30, 1980
                  Investigation

PBS-B-222-80      Construction Contract           June 24, 1980
                  GS-03B-98008, Renovation
                  of the Fourth Floor of
                  the GAO Building

PBS-B-221-80      Title Withheld - Case Under     July 9, 1980
PBS-B-220-80      Investigation                   July 9, 1980

PBS-B-177-80      Selected Contract/Work Orders    June 17, 1980
                  at the Kansas City North and
                  Kansas City South Field Offices,
                  Kansas City, Missouri

S-PBS-C-01-80     Federal Center Paving,          July 30, 1980
                  Fort Worth, Texas

W-PBS-C-01-80     Selected Term Contract Work     August 6, 1980
                  Orders at Federal Building,
                  Seattle, Washington



                                 -71-
Buildings Operations (cont'd)

Number                   Title                    Date of Report

PBS-B-176-80      The Washington National         April 29, 1980
                  Records Center, Suitland,
                  Maryland

PBS-B-174-80      Handicapped Toilet Renova-      May 5, 1980
                  tions in the Veterans
                  Building - Hotline Request

PBS-B-167-80      Title Withheld - Case Under     August 29, 1980
                  Investigation

PBS-B-165-80      Miscellaneous Improvements      July 18, 1980
                  Federal Building, Post
                  Office and Court,
                  Missoula, Montana


CONSTRUCTION

PBS-C-09A-80      Strom Thurmond Federal          March 31, 1980*
                  Building, U.S. Courthouse,
                  Columbia, South Carolina,
                  Architect-Engineer
                  Selection

PBS-C-07A-80      Federal Office Building,        March 12, 1980*
                  Anchorage, Alaska, Report
                  on Architect~Engineer
                  Selection
PBS-C-07B-80      Federal Office Building         March 10, 1980*
                  Anchorage, Alaska, Report
                  on Construction Manager
                  Selection

PBS-C-07C-80      Anchorage, Alaska, Federal      March 12, 1980*
                  Building and Courthouse -
                  Report on Demolition Site
                  Clearing Foundation Contract

PBS-C:...08-80    Federal Building Annex and      June 30, 1980
                  Parking Facility, Nashville,
                  Tennessee




*Formally issued and r   ased during this reporting period.



                                -72-
construction (contUd)

Number                       Title

PBS-C-·09C-80      Federal Building and Court-           August 4,      80
                   house, Columbia, South
                   Carolina, Phase I - Demoli-
                   tion and Clearing, Phase II -
                   Excavation


LEASING

PBS-"L-15-79       GSA1s leases with Franklin            June 24, 1980
                   Haney

W-PBS-L-02-80     Alleged Improprieties in               May 19, 1980
                  Agency Relocations,
                  San Francisco, California

PBS-L-Ol-80        K Street Parking Study                December 6, 1979*

PBS-L-09-80        Proposed Land Exchange,               July 31, 1980
                   U.S. Geological Survey

W-PBS-L-01-80     Federal Building Site                  July 29, 1980
                  Acquisition, Anchorage,
                  Alaska

PBS-L-ll-80       Dickinson-Heffner Leases               September 30, 1980
                  at Woodlawn and the
                  Baltimore Wa ington Science
                  and Industry Center

NC-PBS-L-06-80    Tremonti Buildings, Detroit,           September 5, 1980
                  Michigan

S-PBS-L-03-80     Ballist   Missile Center,              July 31, 1980
                  Huntsville, Alabama

W-PBS-Ir04-80       727 Wil ire      evard,              S        r 30,1980
                   Los Angeles, California




*Forrnally issued and rele           dur ing this r   ting per iod.




                                         73-
Leasing (cont'd)

Number                     Title                  Date of Report

NC-PBS-L-02-80      Site Selection                September 5, 1980
                    Madison, Wisconsin


ENERGY

PBS-E-05-80         IRS Data Center, Detroit,     September 30, 1980
                    Michigan

PBS-E-04-80         Review of GSA's Energy        September 30, 1980
                    Conservation Program in
                    Six Selected Public
                    Buildings

PBS-E-03-80         Santa Fe Arts and Crafts      June 30, 1980

PBS-E-02-80         Proposed Replacement of       April 2, 1980
                    Cooling Tower, ROB,
                    Washington, D.C.


FSS/TPUS DIVISION

FSS/TPUS-01-80      Title Withheld - Case Under   May 18, 1980
                    Investigation




                                   -74
